<html>
<title> - EXPANDING ACCESS TO COLLEGE IN AMERICA: HOW THE HIGHER EDUCATION ACT CAN PUT COLLEGE WITHIN REACH</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
 EXPANDING ACCESS TO COLLEGE IN AMERICA: HOW THE HIGHER EDUCATION ACT 
                     CAN PUT COLLEGE WITHIN REACH

=======================================================================

                                HEARING

                               before the

              SUBCOMMITTEE ON 21st CENTURY COMPETITIVENESS

                                 of the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             July 15, 2003

                               __________

                           Serial No. 108-25

                               __________

  Printed for the use of the Committee on Education and the Workforce



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
            Committee address: http://edworkforce.house.gov







                      U.S. GOVERNMENT PRINTING OFFICE

90-131                        WASHINGTON : 2004
_______________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800, DC area (202) 512-1800 Fax: (202) 512-2250 Mail: stop SSOP, Washington, DC 20402-0001





                COMMITTEE ON EDUCATION AND THE WORKFORCE



                    JOHN A. BOEHNER, Ohio, Chairman

Thomas E. Petri, Wisconsin, Vice     George Miller, California
    Chairman                         Dale E. Kildee, Michigan
Cass Ballenger, North Carolina       Major R. Owens, New York
Peter Hoekstra, Michigan             Donald M. Payne, New Jersey
Howard P. ``Buck'' McKeon,           Robert E. Andrews, New Jersey
    California                       Lynn C. Woolsey, California
Michael N. Castle, Delaware          Ruben Hinojosa, Texas
Sam Johnson, Texas                   Carolyn McCarthy, New York
James C. Greenwood, Pennsylvania     John F. Tierney, Massachusetts
Charlie Norwood, Georgia             Ron Kind, Wisconsin
Fred Upton, Michigan                 Dennis J. Kucinich, Ohio
Vernon J. Ehlers, Michigan           David Wu, Oregon
Jim DeMint, South Carolina           Rush D. Holt, New Jersey
Johnny Isakson, Georgia              Susan A. Davis, California
Judy Biggert, Illinois               Betty McCollum, Minnesota
Todd Russell Platts, Pennsylvania    Danny K. Davis, Illinois
Patrick J. Tiberi, Ohio              Ed Case, Hawaii
Ric Keller, Florida                  Raul M. Grijalva, Arizona
Tom Osborne, Nebraska                Denise L. Majette, Georgia
Joe Wilson, South Carolina           Chris Van Hollen, Maryland
Tom Cole, Oklahoma                   Tim Ryan, Ohio
Jon C. Porter, Nevada                Timothy H. Bishop, New York
John Kline, Minnesota
John R. Carter, Texas
Marilyn N. Musgrave, Colorado
Marsha Blackburn, Tennessee
Phil Gingrey, Georgia
Max Burns, Georgia

                    Paula Nowakowski, Chief of Staff
                 John Lawrence, Minority Staff Director
                                 ------                                

              SUBCOMMITTEE ON 21st CENTURY COMPETITIVENESS

            HOWARD P. ``BUCK'' McKEON, California, Chairman

Johnny Isakson, Georgia, Vice        Dale E. Kildee, Michigan
    Chairman                         John F. Tierney, Massachusetts
John A. Boehner, Ohio                Ron Kind, Wisconsin
Thomas E. Petri, Wisconsin           David Wu, Oregon
Michael N. Castle, Delaware          Rush D. Holt, New Jersey
Sam Johnson, Texas                   Betty McCollum, Minnesota
Fred Upton, Michigan                 Carolyn McCarthy, New York
Vernon J. Ehlers, Michigan           Chris Van Hollen, Maryland
Patrick J. Tiberi, Ohio              Tim Ryan, Ohio
Ric Keller, Florida                  Major R. Owens, New York
Tom Osborne, Nebraska                Donald M. Payne, New Jersey
Tom Cole, Oklahoma                   Robert E. Andrews, New Jersey
Jon C. Porter, Nevada                Ruben Hinojosa, Texas
John R. Carter, Texas                George Miller, California, ex 
Phil Gingrey, Georgia                    officio
Max Burns, Georgia
                                 ------                                





                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on July 15, 2003....................................     1

Statement of Members:
    Kildee, Hon. Dale, a Representative in Congress from the 
      State of Michigan..........................................     5
    McKeon, Hon. Howard P. ``Buck'', a Representative in Congress 
      from the State of California...............................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Dreyfus, Mark, President, ECPI College of Technology, 
      Virginia Beach, Virginia...................................    25
        Prepared statement of....................................    26
        Response to a question submitted for the record..........    51
    Flack, Teri, Deputy Commissioner, Texas Higher Education 
      Coordinating Board, Austin, Texas..........................    15
        Prepared statement of....................................    17
    Fonte, Dr. Richard, President, Austin Community College, 
      Austin, Texas..............................................     7
        Prepared statement of....................................     9
        Response to questions submitted for the record...........    46
    Milano, Christina, Executive Director, National College 
      Access Network, Cleveland, Ohio............................    12
        Prepared statement of....................................    14
        Response to questions submitted for the record...........    47
    Mitchem, Dr. Arnold, President, Council for Opportunity in 
      Education, Washington, DC..................................    19
        Prepared statement of....................................    20
        Response to questions submitted for the record...........    48

Additional materials supplied:
    Garza, Hector, President, National Council for Community and 
      Education Partnerships, Statement submitted for the record.    51
    Torres, George C., Assistant Vice President-Congressional/
      Legislative Relations, Texas Guaranteed Student Loan 
      Corporation, Letter submitted for the record...............    54
    Wilson, Marcus, 2003 President, Texas Association of Student 
      Financial Aid Administrators, et al, Letter submitted for 
      the record.................................................    56


 EXPANDING ACCESS TO COLLEGE IN AMERICA: HOW THE HIGHER EDUCATION ACT 
                     CAN PUT COVERAGE WITHIN REACH

                              ----------                              


                         Tuesday, July 15, 2003

                     U.S. House of Representatives

              Subcommittee on 21st Century Competitiveness

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:04 a.m., in 
room 2175, Rayburn House Office Building, Hon. Howard P. 
``Buck'' McKeon [Chairman of the Subcommittee] presiding.
    Present: Representatives Isakson, Keller, Osborne, Carter, 
Burns, Kildee, Tierney, Kind, Wu, Van Hollen, Ryan, Owens, 
Payne, and Hinojosa.
    Also Present: Representative Bishop.
    Staff Present: Kevin Frank, Professional Staff Member; 
Alexa Marrero, Press Secretary; Alison Ream, Professional Staff 
Member; Deborah L. Samantar, Committee Clerk/Intern 
Coordinator; Kathleen Smith, Professional Staff Member; Holli 
Traud, Legislative Assistant; Ellyn Bannon, Minority 
Legislative Associate/Education; Ricardo Martinez, Minority 
Legislative Associate/Education; and Joe Novotny, Minority 
Legislative Assistant/Education.
    Chairman McKeon. A quorum being present, the Subcommittee 
on 21st Century Competitiveness of the Committee on Education 
and the Work Force will come to order. We make the quorum.
    Mr. Kildee. We have a good team.
    Chairman McKeon. We are meeting today to hear testimony on 
expanding access to college in America, how the Higher 
Education Act can put college within reach. Under Committee 
Rule 12(b), opening statements are limited to the Chairman and 
the ranking minority member of Subcommittee. Therefore, if 
other members have statements, they may be included in the 
hearing record. For that I ask unanimous consent for the 
hearing record to remain open 14 days to allow members 
statements and other extraneous material referenced during the 
hearing to be submitted in the official hearing record. Without 
objection so ordered.

    STATEMENT OF HON. HOWARD P. ``BUCK'' McKEON, CHAIRMAN, 
          SUBCOMMITTEE ON 21st CENTURY COMPETITIVENESS

    I will begin now with my opening statement. Good morning. 
Thank you for joining us for this important hearing today to 
hear testimony about college accessibility which is the 
foundation of the Higher Education Act. This is our ninth 
hearing examining issues that affect our Nation's colleges and 
universities and the students they serve as the Committee 
continues to look at the reauthorization of the Higher 
Education Act.
    When the Higher Education Act was authorized in 1965, 
Congress made a fundamental commitment to ensure that every 
student who desired to pursue a higher education was afforded 
the opportunity. With the creation of the Pell Grant program, 
government-backed student loans and the access programs such as 
TRIO and GEAR UP, the Higher Education Act now authorizes 
multiple programs for low-income, first generation college 
students in order to provide them the necessary assistance to 
allow postsecondary education to be a realistic and attainable 
goal. Over the last three decades, our Nation has made great 
strides to ensure that millions of eligible students can access 
a postsecondary education.
    However, even if with the efforts of both the Federal 
Government and many other invested parties, there has been some 
concern over the last few years that many potential college 
students are still not getting assistance both academically and 
financially to gain access to postsecondary education. It is 
clear there is more we need to do and, as with other programs, 
there is room for improvement.
    Last week, this Subcommittee talked about and recognized 
the need for improvement and reform in the area of 
affordability. Thousands of highly qualified students who are 
academically prepared for college cannot afford to attend and 
fulfill their dreams because higher education institutions, and 
States, are increasing their tuition beyond the reach of 
students. But, obviously, there are other factors as well.
    Having the dream of attending postsecondary education is as 
important as having the means to attend. According to the U.S. 
Department of Education's report on ``Factors Related to 
College Enrollment,'' those students who expect and prepare to 
attend an institution of higher education are more likely to 
actually enroll and attend the college or university. Only 19 
percent of those in the eighth grade whose expectation is to 
graduate from high school actually attend a postsecondary 
institution. Conversely, 73 percent of those in the eighth 
grade who expect to obtain a bachelor's degree actually attend 
college. These statistics show that there is still a need for 
early intervention with students who, because of their 
socioeconomic status, race, age or gender, believe that a 
postsecondary education is not possible. It is vitally 
important for the future of our Nation that we reverse these 
beliefs in order to let every student, regardless of their 
background or expectations, know that postsecondary education 
is possible.
    As early as eighth grade, students form their educational 
expectations and the type of courses taken as early as junior 
high school closely relate to postsecondary education 
attendance. We know that the end of high school is too late in 
most cases to inform students of their options for higher 
education opportunities. General information about 
postsecondary education and more specific information related 
to financial and academic preparation need to be distributed to 
students and their parents as early as possible. According to 
the Department of Education, one quarter of parents said they 
were not able to get enough information about financial aid 
when their child was in the eighth grade and about a quarter of 
low-income families did not apply for financial aid because 
they did not know how to apply.
    Equally important to students seeking an education is 
ensuring that a variety of institutions participate in the 
programs under the Higher Education Act. It is imperative that 
we look at current law to see how it may preclude reputable, 
fiscally-sound institutions from all sectors--public and 
private, for and not-for-profit, 2-year and 4-year 
institutions--from participating in programs under the Higher 
Education Act. If institutions are not able to reach the 
students who live in their communities because of unnecessary 
and indefensible restrictions, then our Nation's students 
suffer to gain access to such vital programs in the current 
law.
    I firmly believe that we can make sure that the law is 
equitable while continuing to maintain the integrity of the 
student financial aid programs.
    Our witnesses here today will talk about the access 
programs that currently exist at a national level, at the State 
level, and even in the local communities in which they work. We 
will also hear some recommendations for improvement and some 
new ideas in order to ensure that we continue to educate and 
encourage all students with the idea that college is possible. 
I also hope that we will learn more about what provisions in 
the law may currently prohibit some postsecondary institutions 
from accessing resources that will enable them to work more 
closely with various student populations.
    As we work to reauthorize the Higher Education Act, the 
central goal still remains to provide access to students who 
desire a quality higher education. We must remove unnecessary 
barriers and allow these critical programs to reach their full 
potential to serve students and help them reach their 
educational goals. However, we will not be doing our job if we 
do not make every effort to provide the necessary information 
students and their parents need about how to fulfill their 
educational dreams.
    Mr. Kildee and I worked together on this in 1998, the last 
reauthorization, and feel like we did a good job. But there is 
still a lot left to be done. We are trying to work together 
now, as we go through this process, to make sure that we have a 
bipartisan approach. This would be one more hearing in which to 
work to that end.
    I now yield to Mr. Kildee for his opening statement.
    [The prepared statement of Chairman McKeon follows:]

     Statement of the Honorable Howard ``Buck'' McKeon, Chairman, 
 Subcommittee on 21st Century Competitiveness, Committee on Education 
                           and the Workforce

    Good morning. Thank you for joining us for this important hearing 
today to hear testimony about college accessibility, which is the 
foundation of the Higher Education Act. This is our ninth hearing 
examining issues that affect our nation's colleges and universities and 
the students they serve as the Committee continues its look at the 
reauthorization of the Higher Education Act (HEA).
    When the Higher Education Act was authorized in 1965, Congress made 
a fundamental commitment to ensure that every student who desired to 
pursue a higher education was afforded the opportunity. With the 
creation of the Pell Grant program, government-backed student loans, 
and access programs such as TRIO, the Higher Education Act now 
authorizes multiple programs for low-income, first generation college 
students in order to provide them the necessary assistance to allow 
postsecondary education to be a realistic and attainable goal. Over the 
last three decades, our nation has made great strides to ensure that 
millions of eligible students can access a postsecondary education.
    However, even with the efforts of both the Federal government and 
many other invested parties, there has been some concern over the last 
few years that many potential college students are still not getting 
the assistance--both academically and financially--to gain access to 
postsecondary education. It is clear there is more we need to do and, 
as with other programs, there is room for improvement.
    Last week, this Subcommittee talked about and recognized the need 
for improvement and reform in the area of affordability. Thousands of 
highly qualified students who are academically prepared for college 
cannot afford to attend and fulfill their dreams because higher 
education institutions, and states, are increasing their tuition beyond 
the reach of students.
    But, obviously, there are other factors as well.
    Having the dream of attending postsecondary education is as 
important as having the means to attend. According to the U.S. 
Department of Education's report on ``Factors Related to College 
Enrollment,'' those students who expect and prepare to attend an 
institution of higher education are more likely to actually enroll and 
attend a college or university. Only 19 percent of those in the eighth 
grade whose expectation it is to graduate from high school actually 
attend a postsecondary institution. Conversely, 73 percent of those in 
the eighth grade who expect to obtain a bachelor's degree actually 
attend college. These statistics show that there is still a need for 
early intervention with students who, because of their socioeconomic 
status, race, age or gender, believe that a postsecondary education is 
not possible. It is vitally important for the future of our nation that 
we reverse these beliefs in order to let every student, regardless of 
their background or expectations, know that postsecondary education IS 
possible.
    As early as eighth grade, students form their educational 
expectations and the type of courses taken as early as junior high 
school closely relate to postsecondary education attendance. We know 
that the end of high school is too late in most cases to inform 
students of their options for higher education opportunities. General 
information about postsecondary education and more specific information 
related to financial and academic preparation need to be distributed to 
students and their parents as early as possible. According to the 
Department of Education, one-quarter of parents said they were not able 
to get enough information about financial aid when their child was in 
the eighth grade, and about a quarter of low income families did not 
apply for financial aid because they did not know how to apply.
    Equally important to students seeking an education is ensuring that 
a variety of institutions participate in the programs under the Higher 
Education Act. It is imperative that we also look at current law to see 
how it may preclude reputable, fiscally-sound institutions from all 
sectors--public and private, for and not-for-profit, two-year and four-
year institutions--from participating in programs under the Higher 
Education Act. If institutions are not able to reach the students who 
live in their communities because of unnecessary and indefensible 
restrictions, then our nation's students suffer to gain access to such 
vital programs in current law.
    I firmly believe that we can make sure that the law is equitable 
while continuing to maintain the integrity of the student financial aid 
programs.
    Our witnesses here today will talk about the access programs that 
currently exist at a national level, at the state level, and even in 
the local communities in which they work. We will also hear some 
recommendations for improvements, and some new ideas in order to ensure 
that we continue to educate and encourage all students with the idea 
that college is possible. I also hope that we will learn more about 
what provisions in the law may currently prohibit some postsecondary 
institutions from accessing resources that would enable them to work 
more closely with various student populations.
    As we work to reauthorize the Higher Education Act, the central 
goal still remains to provide access to students who desire a quality 
higher education. We must remove unnecessary barriers and allow these 
critical programs to reach their full potential to serve students and 
help them reach their educational goals. However, we will not be doing 
our job if we do not make every effort to provide the necessary 
information students and their parents need about how to fulfill their 
educational dreams.
    I now will yield to Congressman Kildee for any opening statement he 
may have.
                                 ______
                                 

  STATEMENT OF HON. DALE KILDEE, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MICHIGAN

    Mr. Kildee. I thank you, Mr. Chairman, and good morning to 
the witnesses, those in the audience. I am, really, always 
happy to work with Chairman McKeon.
    Indeed, in 1998 we wrote a very good bill, and we hope to 
do that again this year. We have already done two parts of it 
last week, the teacher training part and the loan forgiveness 
part, and it was a bipartisan effort that passed overwhelmingly 
on the floor. Bipartisan does not mean perfect, but it means 
very good, and I think we both felt very good about it, and I 
think we do our best work when we work in a bipartisan way, and 
I look forward to working with you and with Mr. McKeon on this 
bill this year.
    There is nothing more important in higher education than 
how access to a postsecondary education is guaranteed. Despite 
over 30 years now since the passage of the Higher Education 
Act, low-income, minority, and those who would be first-
generation college students still do not attend postsecondary 
institutions at the rate of their nondisadvantaged peers. In 
1997, 27 percent more high-income families enrolled in college 
in the fall following their high school graduation than low-
income families. In the same year, the participation rate of 
whites was 7 percent higher than that for African Americans and 
21 percent higher than that for Hispanics.
    This higher education attendance gap translates into lost 
opportunities and lost future income. An individual holding a 
bachelor's degree earns an average of 80 percent more than 
someone who has just a high school degree, and over a lifetime 
this gap grows to well beyond a million dollars. These 
statistics are startling and make access to a college education 
even more important today.
    Fortunately, Congress has responded to these issues through 
several means. First, we provide financial aid to our neediest 
of students through Pell Grants and other forms of need-based 
grant aid, ensuring that our neediest students have sufficient 
grant and really should really be one of our top priorities 
here in Congress. And I have been one that has been pushing 
Pell Grants very very strongly, because I think all of us in 
this room realize that students are assuming such horrendous 
debt level that it is becoming a very very serious problem and 
a real deterrent for people going to college when they realize 
the debt that they would have to undertake.
    The buying power of the Pell Grant itself is at an all-time 
low. In fact, the increase in the maximum Pell Grant made under 
the entire Bush administration is lower than the increase in 
only the last year of the Clinton administration. And this is a 
trend that we must reverse. Of course, again, that is more the 
appropriations process there, and we did pass that bill last 
week with only $4,050 maximum Pell Grant, exactly the same as 
it was in the present year.
    Second, we need to fund and strengthen our early 
intervention programs under TRIO and GEAR UP. As a former 
teacher, I know how important it is and how much more effective 
it can be if we would address this in a more meaningful way. It 
is absolutely critical that support services, counseling, and 
other early intervention activities be available for low-income 
and likely first-generation college students. Without these 
services, many of our students will not realize the opportunity 
of postsecondary education.
    And third, and not something necessarily for debate by this 
Subcommittee, is the importance of having an accountable and 
well-funded K-12 education system. That system is the one that 
feeds the higher education system. And sometimes I have been 
ranking Democrat or even one time, years ago, Chair of that 
Committee, but much of the accountability provisions of the No 
Child Left Behind Act will identify which schools and school 
districts need assistance.
    However, we are so short on funding, the House passed 
Labor/HHS/Education Funding bill for the Elementary Secondary 
Education Act, and we are $8 billion short of the authorized 
level. Just in Title I alone for next year, we should be 
appropriating $18.5 billion which was authorized, and we 
appropriated only $12.35 billion. That's about 30 percent short 
of the authorization level. And I think we try to close that 
gap between the authorization and the appropriations. I think 
today's hearing will shed important light on many of these 
issues.
    Today's panel of witnesses is a really an excellent place 
in which to start our discussions, and I thank the Chairman for 
assembling experts on this field. It is my hope that we can 
work on a bipartisan basis, as we have done up to this point, 
and that's, I know, the wish of both Mr. McKeon and myself. And 
your help will help us achieve that.
    I yield back the balance of my time.
    Chairman McKeon. Thank you, Mr. Kildee.
    Now, I would like to introduce our witnesses. First, we 
will hear from Dr. Fonte, President of the Austin Community 
College in Texas. Previously, he served as the Assistant for 
Workforce Education to Governor Edgar of Illinois and as 
President of South Suburban College in Illinois. In addition, 
he is a member of the Executive Committee of the Texas 
Association of Community Colleges and serves on the American 
Association of Community Colleges Ad Hoc Task Force for 
Reauthorization of the Higher Education Act.
    Ms. Milano is the Executive Director of the National 
College Access Network, a nonprofit alliance of privately 
funded college access programs. In addition, she also serves as 
the Chief Executive Officer of the Ohio College Access Network. 
Previously, Ms. Milano worked for 14 years as the Executive 
Director of Cleveland Scholarship Programs, an independent, 
nonprofit, college selection, financial aid counseling, and 
scholarship organization in Cleveland, Ohio.
    Ms. Flack is the Deputy Commissioner of the Texas Higher 
Education Coordinating Board. Prior to her current position, 
she directed governmental relations and public information for 
the board. Ms. Flack has been involved in the activities of 
State government and in particular, the State legislature for 
nearly 22 years. Aren't you glad you are not there now?
    Dr. Mitchem is the President of the Council for Opportunity 
and Education, a nonprofit organization that focuses 
specifically on assisting low-income students to enter college 
and serves as a link between Federal TRIO programs and the 
institutions of higher education. Prior to his current 
position, he served on the history faculty at Marquette 
University and as Director of the Education Opportunity 
Program.
    Mr. Dreyfus is the President and Chief Executive Officer of 
ECPI College of Technology, which consists of 14 campuses in 
Virginia, North Carolina and South, Carolina. Previously, he 
served for 9 years as the Executive Vice President at ECPI. Mr. 
Dreyfus also serves as Vice Chairman of the Career College 
Association, is President of the Virginia Career College 
Association, and a member of the Steering Committee for the 
Governor of Virginia's Higher Education Summit.
    Welcome. We are happy to have you all here. I think you 
know how those little lights work. You have 5 minutes to 
summarize your testimony. Your complete testimony will be 
included in the record. When you begin, the green light comes 
on, and when you have a minute, left the yellow light comes on, 
and when your time is up, the red light comes on.
    And, we are now happy to hear from Dr. Fonte.

  STATEMENT OF DR. RICHARD FONTE, PRESIDENT, AUSTIN COMMUNITY 
 COLLEGE AND MEMBER OF THE BOARD OF DIRECTORS OF THE AMERICAN 
               ASSOCIATION OF COMMUNITY COLLEGES

    Dr. Fonte. Thank you, Chairman McKeon, Ranking Member 
Kildee, members of the Subcommittee. Good morning.
    My name is Richard Fonte. I am the President of the Austin 
Community College in Austin, Texas. The college enrolls 30,000 
students, has six campuses and is located in six counties, 
including that of one of the members of your Committee, 
Congressman Carter. We are simultaneously an urban, suburban, 
and rural community college. I also serve on the Board of 
Directors of the American Association of Community Colleges, 
the AACC. I am pleased to be here representing the AACC.
    Increasing access to affordable, high-quality higher 
education was the driving force that really created AACC's 
member institutions and remains the cornerstone of community 
colleges.
    No discussion of access to higher education is complete 
without considering community colleges. Community colleges are 
known as ``open access'' institutions of higher education. In 
its simplest term, this refers to community college policies 
that welcome all who seek to continue their education beyond 
high school. However, access means more than just open 
enrollment, as I will explain.
    Community colleges pride themselves as offering high-
quality instruction at low tuition. But, as Subcommittee 
members know, needy students require significant amounts of 
Federal financial aid to be able to attend. The Higher 
Education Act makes an essential, irreplaceable contribution to 
access through its student aid programs. Today, 1.6 million 
community college students receive a Pell Grant, a figure that 
has risen significantly since the beginning of the economic 
downturn. The Pell Grant's purchasing power, however, has 
eroded. Even with community colleges low tuition, the average 
unmet need for low-income students averages $3,200. This gap 
can be especially daunting to a potential first-generation, 
first-year student who is highly unlikely to even consider a 
loan to finance their education. Congress should reaffirm its 
commitment to the Pell Grant program by doubling the authorized 
maximum award over the next 5 years. This would ensure that the 
Pell Grant continues to provide access to higher education for 
the neediest students.
    Campus-based programs also need a renewed commitment. Open 
access requires that postsecondary educational opportunities 
are available when, where and in the form they need it. 
Yesterday's nontraditional students are generally the norm at 
community colleges, and they require many different modes of 
success.
    Distance education is vital to making postsecondary 
education more widely available. Last fall, for example, Austin 
Community College offered more than 150 Web-based courses, in 
addition to cable courses and interactive videoconferencing 
courses, serving 5,500 students at our college.
    The reauthorized HEA needs to reflect the dramatic growth 
of distance education. The 50 percent rule, which limits the 
amount of distance education courses that institutions may 
offer, should be changed to give the Secretary of Education 
waiver authority for institutions that have or are about to 
exceed this limit. While relatively few institutions are near 
this threshold today, probably many more will approach it over 
the next 5 years. Our economy demands that increased numbers of 
students enroll and persist in higher education. Texas's 
``Closing the Gaps'' higher education access initiative, which 
I know you will be hearing about more in a few seconds, seeks 
to increase participation in higher education by 500,000 
students each year by 2015, including some 300,000 students who 
would normally be viewed as not traditionally attending higher 
education, based upon past demographic trends.
    Seventy percent of these new students will attend a 
community college. And, by the way, this has profound economic 
impact on the future of Texas and the economy of our State if 
we are to have the levels that we need attending college and 
completing college. Outreach to minority students is critical 
in this regard. Community colleges enroll 46 percent of all 
African-American undergraduate students and 55 percent of all 
Hispanic students. Unfortunately, these two groups attend and 
complete college at a lower rate than the Anglo population. 
This trend in participation and access must be changed if we 
are to have the intellectual capital to meet the economic needs 
of the 21st century. Open Access must include active efforts to 
reach out to those who have not otherwise been inclined to 
consider higher education. For this reason, AACC strongly 
supports the TRIO and GEAR UP programs which aim to increase 
postsecondary participation.
    Maintaining Open Access, in the current economic and fiscal 
situation, is increasingly challenging. Almost everywhere 
community colleges face State budget cuts and rising 
enrollments. As public resources decrease, Open Access is 
threatened in two principal ways, increased tuitions and/or 
reduction in services. Since community colleges raise tuitions 
as the very last resort, many have been forced to decrease the 
number of seats available in particular programs, or to 
eliminate them all together. Some areas have been considering 
enrollment caps and other measures that are an anathema to the 
basic community college commitment to access.
    The States' fiscal conditions are not projected to improve 
any time soon. A strengthened commitment to Federal programs 
that increase student access, now more than ever, is very 
important. If the Subcommittee members keep this in mind as 
they reauthorize the HEA, their efforts will be successful.
    Thank you for your consideration.
    Chairman McKeon. Thank you.
    [The prepared statement of Dr. Fonte follows:]

Statement of Dr. Richard Fonte, President, Austin Community College and 
  Member of the Board of Directors, American Association of Community 
                                Colleges

    Chairman McKeon, Ranking Member Kildee, members of the 
Subcommittee, Good morning. My name is Richard Fonte and I am President 
of Austin Community College in Austin, Texas. Austin Community College 
is a community college with 30,000 students, 6 campuses and located in 
six counties. We are simultaneously an urban, suburban and rural 
community college.
    I am proud to serve as a member of the Board of Directors of the 
American Association of Community Colleges (AACC). I am pleased to be 
here this morning to speak on behalf of AACC on the topic of access to 
higher education. AACC counts approximately 1,100 of the nation's 
community colleges as its members, and serves as their primary voice 
before Congress, the federal agencies, and the public.
    Increasing access to affordable, high-quality higher education was 
the driving force behind the creation of AACC's member institutions, 
and remains the cornerstone of their mission today. The potential 
effect on student access enters into nearly every key decision made on 
our campuses.
    No discussion of access to higher education is complete without 
considering the role of community colleges. Nationwide, approximately 
44% of all undergraduates are enrolled at our institutions. Community 
colleges are vital entry points into higher education for traditionally 
underserved populations, including minorities and economically 
disadvantaged students. Approximately five million more enroll in non-
degree courses at our institutions, for anything from upgrading 
technical skills to adult basic education and English as a Second 
Language (ESL).
    Community colleges are known as ``open access'' institutions of 
higher education. In its simplest sense, this term refers to policies 
maintained by community colleges that welcome all who seek to continue 
their education beyond high school. We believe, however, that 
``access'' goes well beyond enrollment policies. It encompasses a wide 
array of activities that contribute to increased success for the 
largest number of students. We define success as the attainment of 
personal goals and the realization of individual potential. In turn, 
these successes benefit the broader society and economy. The 
initiatives undertaken on our campuses, in partnership with federal, 
state and local public entities, make access to higher education a 
reality.
    From the community college perspective, access includes the 
following:
    <bullet> LProviding students with the necessary financial 
resources. Community colleges pride themselves on offering high quality 
instruction at a low cost. Behind our low tuition lies our ability to 
deliver education for less than other types of institutions. Keeping 
costs low, and maintaining affordability, is a watchword of our 
institutions. Even so, needy students still need substantial assistance 
to attend community college. In that regard, there is no substitute for 
the Higher Education Act (HEA). The HEA's student aid programs, 
particularly the Pell Grant program, continue to play a pivotal role in 
creating access to community college. Pell Grants are the building 
block of access for financially disadvantaged community college 
students. About 1.6 million community colleges students now receive a 
Pell Grant. This number has burgeoned in the last three years, and, 
significantly, the largest percentage increase has taken place in the 
category of ``independent students with dependents 'that is, people who 
have families and are almost always going back to our colleges for job-
related reasons. When economic times are bad, community colleges become 
more important than ever; postsecondary education is what economists 
call a ``counter-cyclical industry.
      L  The Pell Grant remains the most effective vehicle for helping 
needy students to access college, despite the fact that its purchasing 
power has eroded over time. We cheer Congress's strong bi-partisan 
support for the program. However, the current maximum Pell Grant of 
$4,050 is still well short of the average annual cost of attendance of 
$9,081 for a full-time student at a public two-year college. Even with 
our low tuition, the unmet need for low-income students at public 
community colleges averages $3,200, according to the Advisory Committee 
on Student Financial Assistance's report Access Denied: Restoring the 
Nation's Commitment to Equal Education Opportunity. This gap can be 
especially daunting to a potential first year student from a family who 
has never had a family member attend college. Such a student, I might 
add, is highly unlikely to even consider a loan to finance their 
education.
      L  Over the next decade college enrollment is expected to 
increase by 14%, of which 80% will be minorities, one-fifth of whom 
will live below the poverty line. For these students Pell Grants will 
be a critical factor in expanding access to higher education.
      L  Congress should reaffirm its commitment to need-based 
financial aid by endorsing significantly higher Pell Grant and other 
student aid funding. This is especially important in light of federal 
tax education policies which, regrettably, do not generally target the 
neediest students, as well as states' alarming movement away from need-
based aid. The authorized maximum Pell Grant award should be doubled 
over the course of the next HEA reauthorization. Obviously, doubling 
the authorized maximum obviously will not guarantee greater funding. 
However, it would signal to appropriators that financially 
disadvantaged students need significantly more grant aid. AACC also 
recommends changing the Pell Grant award rules so that needy students 
attending the lowest-cost institutions still qualify for the maximum 
Pell Grant. These students' total cost of attendance remains well above 
the maximum Pell Grant award.
    <bullet> LMaking postsecondary education available where and when 
students need it. Open access can never be achieved if postsecondary 
educational opportunities are not available to students when, where, 
and in the form they need it. The average community college student is 
29 years old, and nearly two-thirds of our students are enrolled part-
time. Approximately half of community college students work full-time. 
Many community college students are supporting families of their own, 
often by themselves. Yesterday's non-traditional student is generally 
the norm at community colleges.
      L  With over 1,100 institutions nationwide, a community college 
is often within easy reach, but that fact alone does not satisfy the 
demand for readily available postsecondary options. Community colleges 
are pioneers in offering flexible class schedules, including night and 
weekend classes and ongoing enrollments, where a new term starts every 
few weeks, rather than a few times a year. Classes are offered in 
various places beyond the confines of the campus, including local 
community locations, local high schools, and at job sites, frequently 
through on-the-job training specifically tailored to the needs of 
employers.
      L  Furthermore, over one-third of community colleges are located 
in rural areas, where geographic distance from campus is often a major 
deterrent to pursuing postsecondary education. Developing innovative 
approaches to extending the reach of educational options is especially 
important in these areas.
      L  Distance education has become an essential tool in making 
postsecondary education more widely available. The number of course 
offerings offered via ``distance education,'' a catchall term 
encompassing a number of different technologies, is rapidly increasing 
at community colleges. For example, last fall Austin Community College 
offered more than 150 web-based courses, in addition to cable courses 
and interactive videoconferencing courses, serving 5,500 students.
      L  The reauthorized HEA should reflect the increasing role of 
distance education. Specifically, AACC recommends modifying the ``50% 
rule'' that limits the amount of distance education courses that 
institutions may offer by giving the Secretary of Education waiver 
authority for institutions that have, or are about to, exceed this 
limit. While relatively few institutions are near this threshold today, 
that situation could change rapidly during the course of the next 
reauthorization. Many parties are calling for eliminating the 50% rule 
altogether. While we respect this perspective, we think that an ounce 
of caution up-front may well prevent a pound of scandal later. Congress 
may choose to delineate the criteria that the Secretary would use in 
reviewing requests to exceed the 50% threshold.
    <bullet> LOutreach to and support of underrepresented populations. 
80% of jobs in the 21st century will require at least some 
postsecondary education, and meeting that percentage will require all 
of us to make a concerted effort to increase the number of students 
enrolling and persisting in higher education. In Texas, under the 
statewide ``Closing the Gaps'' higher education access initiative, we 
estimate that, by 2015, we need to increase participation in higher 
education by 500,000 students each year, including some 300,000 
students who would not traditionally attend based upon past demographic 
trends.
      L  In fact, Texas officials estimate that failure to achieve 
these greater levels of participation will have dire economic 
consequences. It is projected that average household income in Texas 
would decline by $4,000, if higher participation in college is not 
achieved. A less educated population makes less income and thus the 
waste of human resources has adverse, aggregate economic consequences.
      L  Reaching out to first-generation college students is crucial, 
and here community colleges play an important role. More than half of 
all community college students come from families where neither parent 
attended a postsecondary educational institution, a higher percentage 
than any other sector of higher education. Again, in Texas, it is 
assumed by higher education officials that 70% of all the new students 
we need to close the gap in access will attend a community college.
      L  Outreach to minority students is an especially critical facet 
of this overall effort. As our society becomes increasingly diverse, we 
must do better at enrolling greater percentages of ``minority'' 
populations. Community colleges pride themselves on being the ``Ellis 
Island of higher education,'' enrolling 46% of all African-American 
undergraduate students and 55% of all Hispanic students. Unfortunately, 
currently these two groups attend and complete college at a lower rate 
than the Anglo population. This trend in participation and access must 
be changed if we are to have the intellectual capital to meet the 
economic challenges of the 21st century. ``Open access'' must go beyond 
a passive open door policy to include active efforts to reach out to 
those who might not otherwise be inclined to enter that open door. For 
these reasons, AACC strongly supports programs like TRIO and GEAR UP 
that aim to increase and widen enrollments in postsecondary education. 
In reauthorizing the Higher Education Act, we must continue and 
strengthen these efforts.
    <bullet> LPreparing students for postsecondary education success. 
Though community colleges maintain open enrollment policies, simply 
possessing a high school diploma or a G.E.D. is often insufficient 
preparation to enter a particular community college program with 
reasonable expectation of successfully meeting the student's 
educational objective. Most community colleges require an initial 
assessment of some or all entering students to determine their 
readiness for particular programs, such as academic university transfer 
programs or nursing. Students who do not possess all the tools 
necessary for their chosen program are generally required to take 
developmental courses to prepare them for success at the college. 
Students who are reentering formal education after an extended absence 
especially need these second chances. While the numbers vary from 
institution to institution, most community colleges report that a 
substantial percentage of their students of all ages need some remedial 
coursework. Such developmental coursework is a critical component of 
increased access and success at community college. In the words of a 
recent AACC publication authored by Dr. Robert McCabe, former President 
of Miami-Dade Community College, there is ``No One To Waste.'' Open 
access also means working with students who may not be educationally 
prepared at the level that we would like. However, Dr. McCabe has shown 
that investing in these students may be the most cost-effective one 
made in higher education.
      L  Community colleges also work closely with secondary schools to 
help students make the transition to higher education. In more and more 
places, access to higher education is supported through dual enrollment 
programs that permit high school juniors and seniors to get a jump 
start on college. Community colleges are also on the front-line of 
joint curriculum consultation between college and high school faculty 
implementing new state education standards for high school students.
      L  With the enactment of the No Child Left Behind legislation in 
the last Congress and its subsequent implementation, the quality of 
education at the elementary and secondary levels has commanded much 
attention. Of course, any increase in quality at those levels would 
help reduce the number of postsecondary students who need remediation. 
Improving teacher quality is at the center of these efforts, and 
community colleges play an expanding role in the preparation, 
certification, and professional development of elementary and secondary 
teachers. AACC recommends that the reauthorized HEA include a new 
national competitive grant program in Title II that focuses on the 
community college role in these areas. Such a program would help 
develop additional ways of dealing with the expected massive teacher 
shortfall. All avenues into the classroom for qualified professionals 
must be nurtured.
Additional Challenges To Access
    I wish to conclude with a few words about the challenges that 
community colleges face in maintaining open access in the current 
economic and fiscal situation. Nearly across the board, community 
colleges are facing state budget cuts at the same time they are 
experiencing rising student enrollments. The average community college 
receives almost 60% of its revenues from state and local sources. As 
these public resources decrease or are greatly constrained, open access 
is threatened in two principal ways: increased tuitions and/or 
reduction of services.
    Since community colleges raise tuitions as a last resort, many have 
been forced to decrease the number of seats available in particular 
programs, or eliminate them altogether. These reductions hit high-cost 
programs first, such as nursing or high technology programs, where 
there is often the greatest demand for skilled workers. Some areas have 
been considering enrollment caps and other measures that are anathema 
to the community college commitment to access.
    The states' fiscal conditions are not projected to significantly 
improve anytime soon. Through anecdotal reports from our members, 
tuition increases for the upcoming year may be greater than those last 
year. Again, these increases are a direct result of decreased resources 
coming to our institutions from state and local governments. If you do 
not think that these funding reductions lead to public college tuition 
increases, we respectfully ask you to think again: for the six academic 
years preceding last fall, community college tuitions increased by an 
average of just 2.2%. Last fall, in the midst of severe funding 
reductions in almost every state, tuitions jumped by 7.9%. The 
relationship could not be clearer. Given this situation, and similar 
stress affecting all of higher education, the federal commitment to 
programs that increase student access is needed now more than ever. I 
urge the committee to keep this in mind as it continues with the HEA 
reauthorization.
    Thank you for the opportunity to present this testimony. I would be 
pleased to answer any questions that you may have.
                                 ______
                                 
    Chairman McKeon. Ms. Milano.

  STATEMENT OF CHRISTINA MILANO, EXECUTIVE DIRECTOR, NATIONAL 
            COLLEGE ACCESS NETWORK, CLEVELAND, OHIO

    Ms. Milano. Mr. Chairman and members the House Subcommittee 
on 21st Century Competitiveness, thank you for holding this 
hearing today on expanding college access in America.
    My name is Tina Milano, and I am the Executive Director of 
the National College Access Network. I am joined here today by 
trustee Betsy Brand and staff member Kim Kiely.
    NCAN is an alliance of community-based, primarily privately 
supported, college access programs serving students in 46 
locations throughout the United States. I will submit a written 
statement, and you may visit our Website at collegeaccess.org 
for more detailed information on each of our programs.
    The college access program that may be most familiar to 
members of the Committee is DC CAP, and that was started by the 
Washington Post Chairman, Donald Graham, 3 years ago right here 
in Washington. The goal of this program, DC CAP, and all of the 
other NCAN member programs is to increase the number of low-
income, primarily first-generation students who enroll in and 
graduate from colleges. College access programs do this by 
sending staff to work in high schools to offer college 
admission, career and financial counseling to students and to 
make sure that the students have enough money to actually pay 
the tuition once they enroll in college.
    Other NCAN members operate College Access Centers, where 
students of all ages can go to get personal assistance with 
college admissions, careers and scholarship searches. Through 
the work of these community-based programs, thousands of low-
income students go to college every year.
    NCAN welcomes the focus on college access and the critical 
need for an educated workforce in our country that has been a 
recurring theme of this reauthorization of the Higher Education 
Act. It is really a strange contradiction that while the United 
States Department of Labor predicts that 90 percent of new jobs 
in the 21st century will require college training, the Advisory 
Committee on Student Financial Assistance reports that 
financial barriers prevent 48 percent of college-qualified, 
low-income high school students from attending a 4-year 
college, and 22 percent of them from attending any college at 
all, within 2 years after high school graduation.
    The reauthorization of the Higher Education Act gives 
Congress the opportunity to consider the rapidly approaching 
confluence of four factors: The high cost of college, the 
reduced purchasing power of Federal grants to students, the 
unreasonably large numbers of students whom guidance counselors 
are expected to assist (in California, the ratio of students to 
guidance counselors is approaching 1,000/1) and the dearth of 
well-paying careers available to those without a college 
education. I am glad to have the opportunity to talk with you 
this morning about one possible solution.
    Community leaders, most of them successful entrepreneurs, 
created almost every single NCAN-member program. The way these 
programs operate is really simple. The staff members provide 
two things. They provide counseling on financial aid and 
college admissions and money. Advisors work in high schools and 
community centers to educate students and their parents about 
how crucial it is for them to make postsecondary education part 
of their future. Most access programs also give ``last dollar'' 
scholarships or provide gap financing to students who have been 
accepted into college but whose financial package, including 
Pell Grants, work-study, loans, and institutional grants fall 
short of enabling the students to actually attend.
    Recently, most of these programs expanded their services to 
younger students and their parents. The Cleveland program, for 
example, is working with more than 5,000 middle-school students 
arranging for them to visit college campuses, making sure they 
are signing up for the right courses in high school and meeting 
with parents about how to help their children prepare for 
college. At the other end of the spectrum, some programs have 
extended their counseling services and mentoring to students 
who have enrolled in college and may be at the risk of dropping 
out.
    These programs are data-driven, low-cost, and proven to 
work for all students. For every dollar access programs give 
away, they help students leverage another $12 including the 
Federal support used to pay their tuition. With just a bit of 
seed money, it is possible to unleash a community's ability and 
potential to help its own. With a small amount of Federal 
funding, NCAN could start many more of these programs.
    By increasing Federal student aid and recognizing 
community-based solutions through programs such as GEAR UP and 
TRIO, as well as NCAN's model of college access programs, the 
Federal Government maximizes the synergy created by 
communities, schools, institutions of higher learning, 
foundations and local and State governments as these 
organizations work to increase our Nation's college-going 
rates.
    Thank you very much.
    Chairman McKeon. Thank you.
    [The prepared statement of Ms. Milano follows:]

Statement of Christina R. Milano, Executive Director, National College 
                             Access Network

    Mr. Chairman and members of the House Subcommittee on 21st Century 
Competitiveness, thank you for holding this hearing today on 
``Expanding Access to College in America.'' By holding this hearing 
today on ``Expanding Access to College in America,'' you provide a 
forum to discuss this challenge and highlight solutions.
    My name is Tina Milano and I am the Executive Director of the 
National College Access Network (NCAN). I am also joined today by NCAN 
Trustee Betsy Brand and NCAN staff member Kim Kiely. The National 
College Access Network (NCAN) is an alliance of community-based, 
privately supported, college access programs serving students in 46 
locations throughout the country. I have submitted a detailed written 
statement and you may visit our website at www.collegeaccess.org for 
information on our members' college access programs.
    The college access program that may be most familiar to the members 
of the committee is DC CAP, started by The Washington Post Chairman and 
CEO, Don Graham, a few years ago right here in Washington. The goal of 
DC CAP and all of the other member programs is to increase the number 
of low-income, primarily first generation students who enroll in and 
graduate from college. College access programs do this by sending staff 
to work in high schools to offer college admission; career and 
financial aid counseling to students and to make sure these students 
have the money they need to pay their college tuition.
    Other NCAN members operate College Access Centers where students of 
all ages can go to get personal assistance with college admissions, 
careers and scholarship searches. The oldest and largest of these 
centers is situated in the Boston Public Library. Through the work of 
the Boston program and other community-based programs, thousands of 
low-income students enroll in college every year.
    NCAN welcomes the focus on college access and the critical need for 
an educated workforce in our country that has been a recurring theme of 
this reauthorization of the Higher Education Act. It is a strange 
contradiction that while the United States Department of Labor predicts 
that 90 percent of new jobs in the 21st century will require college-
level training, the Advisory Committee on Student Financial Assistance, 
reports that financial barriers prevent 48 percent of college-
qualified, low-income high school students from attending a four-year 
college, and 22 percent from attending any college at all, within two 
years of high school graduation. According to a recent Harris poll 
commissioned by the Sallie Mae Fund, those who need financial aid the 
most say they need more information about how to pay for college.
    The reauthorization of the Higher Education Act gives Congress the 
opportunity to consider the rapidly approaching confluence of four 
factors: the high cost of college, the reduced purchasing power of 
federal grants to students, the unreasonably large numbers of students 
whom guidance counselors are expected to assist (in California the 
ratio is approaching 1000/1) and the dearth of well-paying careers 
available to those without a college education. I am glad to have the 
opportunity to talk with you this morning about one of the possible 
solutions.
    Community leaders, many of them successful entrepreneurs, who 
wanted to ensure that all young people in their cities and towns had 
the opportunity to go to college, created almost every NCAN-member 
program. Many of the programs were modeled after the oldest program in 
the country, Cleveland Scholarship Programs. The way these programs 
operate is simple. Staff provides two things--counseling and money.
    For many years, these programs targeted juniors and seniors in high 
school. Advisors work in high schools and community centers to educate 
students and their parents about how crucial it is for them to make 
postsecondary education part of their future. Most access programs also 
give ``last dollar'' scholarships to students who have been accepted 
into college but whose financial aid packages including Pell grants, 
loans, work-study and institutional grants--fall short of enabling the 
students to actually attend. The backbone of all of these programs is 
the provision of information to students about why college is necessary 
and the distribution of last-dollar funding to make college attendance 
a reality.
    Recently, most college access programs expanded their services to 
younger students and their parents. The Cleveland program is working 
with more than 5,000 middle-school students--arranging for them to 
visit college campuses, making sure they are signing up for the right 
academic courses, and meeting with parents about how to help their 
children prepare for college. The result of their work is already 
beginning to appear. For the students who are participating--
absenteeism is down and the promotion rate is up. At the other end of 
the spectrum, some programs have extended their counseling services and 
mentoring to students who have enrolled in college and who, due to a 
variety of factors, may be at risk of dropping out of school.
    The idea of this public/private partnership resonates with many. 
Earlier this year, I spoke with the US Conference of Mayors Education 
Committee who adopted a resolution encouraging mayors to create and 
support college access programs in their cities. In Ohio, Governor Taft 
has lead the way to fund expansion of local programs through the Ohio 
College Access Network. In a little over a year and half, Ohio has 
increased the number of programs from 11 to 30.
    This public-private partnership is enormously successful. The 
return on a community's investment is impressive and the success rate 
of students is remarkable--70% of them graduate. This compares 
favorably to the national graduation rate of 53% (National Center of 
Educational Statistics, IPEDS Graduation Rate Survey, 2001).
    These programs are data-driven, low cost and proven to work for all 
students. For every dollar access programs give away, they help 
students leverage another $12 to use to pay their tuition. With just a 
bit of seed money, it is possible to unleash a community's potential to 
help its own. With a little bit of seed money from the federal 
government it would be possible for NCAN to get hundreds more of these 
programs started throughout the country.
    By combining increased federal student aid grants and recognition 
of community-based solutions through programs such as GEAR-UP and TRIO, 
as well as NCAN's model of college access programs, the federal 
government can contribute to the synergy created by communities, 
schools, institutions of higher education, foundations, and local and 
state governments as these organizations work to increase our nation's 
college going rates.
    Thank you for this opportunity to voice our appreciation for the 
Committee's attention to the important issue of access to higher 
education for low-income students. I and the members of the National 
College Access Network stand ready to meet this challenge. At the 
appropriate time, I am happy to answer your questions and share more 
about the work of the National College Access Network. Thank you.
                                 ______
                                 
    Chairman McKeon. Ms. Flack.

  STATEMENT OF TERI FLACK, DEPUTY COMMISSIONER, TEXAS HIGHER 
          EDUCATION COORDINATING BOARD, AUSTIN, TEXAS

    Ms. Flack. Thank you, Mr. Chairman, Congressman Kildee, 
members, thank you for inviting me to testify before you today. 
I appreciate any opportunity to discuss the Texas master plan 
for higher education, ``Closing the Gaps'' and the efforts that 
we are undertaking in Texas to improve access and reach out to 
students.
    The Coordinating Board adopted ``Closing the Gaps'' in 
October 2000, and as we look back on the development of the 
plan, we now realize that the real question all of the people 
involved in our planning process asked was, ``what was the 
worst thing that could happen in Texas that education could 
prevent?'' And we realized that, in reality, the worst thing 
was for the dire predictions that our State Demographer, Steve 
Murdoch, had made to come true.
    Dr. Murdoch has traveled around Texas on a campaign for 
years to awaken the State to the consequences of a trend that 
has been continuing for decades. Part of the trend is 
manifested in the fact that our population has grown much 
faster than the growth of the number of people we have enrolled 
in our colleges and universities. In particular, the fastest 
growing segment of our population, Hispanics, participated 
significantly lower rate than other groups--despite the fact 
that Hispanic enrollments in Texas have grown exponentially 
over the last decade. If we do not change this trend, Texas 
will gradually become a less and less well-educated State. And 
therefore, a less prosperous State with fewer opportunities for 
all of our people.
    In economic terms, to echo what Congressman Kildee said, 
Dr. Murdoch's projections show that by 2040, median household 
income in the State of Texas in constant dollars would drop by 
over $5,000 from its current level of $41,000. Multiplied by 
the number of households projected to be in Texas by 2040, the 
consequence would be a reduction of over $60 billion in income 
annually to our families in the State. So opportunities for our 
people would contract, the State's economic competitiveness 
would diminish, and the overall quality of life would drop.
    If we cannot change this trend, the only educational 
category in Texas that will grow by 2040 is the percentage of 
our workforce that has less than a college education.
    It also did not take us long to realize that the trend is 
aggravated by these large gaps that exist within Texas, and 
between Texas, and the 10 most populous States in higher 
education participation, success, and quality.
    Ultimately the question became: ``Well, how can we prevent 
that worse thing from happening in Texas?'' And the answer 
became clear. We must close the gaps within Texas and between 
Texas and other States in higher education participation, 
success, excellence, and research. We must have a performance 
system in place to measure whether we are making progress 
toward accomplishing those goals.
    Here is our pocket plan. Clearly, those four goals of 
``Closing the Gaps'' by 2015 cannot be reached unless we also 
close similar gaps at all levels of education. The Closing the 
Gaps plan, clearly, rests on a prekindergarten through higher 
education philosophy.
    Of particular interest to the Subcommittee members are the 
plan's first two goals: Close the gaps in participation rates 
across Texas to add 500,000 more students, a 50 percent 
increase, and close the gaps in success by increasing by 50 
percent the number of degrees, certificates and other 
identifiable student successes from high quality programs.
    It is important that high quality be maintained. We are not 
just looking to graduate more students. The plan has three main 
strategies for achieving the participation and success goals: 
Improve student preparation for success, affordability, and we 
must build on the awareness about the importance of higher 
education to students and their families, promote preparation 
to enable students to succeed in higher education, and raise 
and reinforce motivation and aspirations to continue education 
beyond high school.
    The College for Texans campaign is a key effort for 
accomplishing these strategies. And another key strategy is the 
fact that we now have the college preparatory curriculum as the 
default curriculum for our high school students. In other 
words, for a student to graduate from high school, they must 
enroll in the college prep curriculum unless their parents and 
their guidance counselors determine that it is not appropriate 
for those students. The campaign embraces the notion that we 
have to get students prepared, but the single objective of the 
campaign is to bring the approximately 300,000 missing people, 
as Dr. Fonte referred to them, who would otherwise not enroll 
in higher education by 2015 into our colleges and universities 
and have them prepared to succeed.
    The campaign is being pursued along two lines. One is the 
traditional marketing and advertising effort, but the other is 
a grassroots outreach effort to connect organizations and 
persons across the State in a common campaign to reach the 
people who would otherwise be missing and anyone who influences 
their behavior, and I do mean anyone. And to provide 
information, build aspirations and reinforce motivation to 
assist them in preparing well at every grade level for success 
in higher education. A fact sheet describing the campaign in 
more detail is included in your briefing materials.
    The theme of the campaign is ``Education: Go Get It'' and 
we all wear ``Go'' pins to remind people that that's the point. 
One of the most promising efforts that is underway is the 
establishment of ``Go Centers'' at high school throughout the 
State. These centers are a grassroots network of community-
based college recruiting centers using student peer educators. 
The idea is for these G-Force members, as we call them, who are 
both high school and college students, to create the momentum 
for other students to go to college. We currently have 48 in 
development, but that number increases almost daily. And, we 
have only been actively trying to do this for the last several 
months. A copy of the brochure describing the ``Go Centers'' is 
also provided in your briefing materials. Interestingly, these 
Centers are funded through a combination of State, Federal and 
private funds.
    This is just one of the many efforts that Texas is engaged 
in to reach out to students. And, although my time is up, I 
would be delighted to share information about other efforts 
that we are undertaking. We believe that ``Closing the Gaps'' 
has changed the way we view education in the State of Texas. 
The State's leadership, our public and higher education 
communities, business leaders and community-based organizations 
have all rallied to the call. Establishing a few very 
compelling critical goals and providing strategies to achieve 
them, targets to aim for, and a performance system to measure 
our progress has given Texas a new direction. Achieving the 
goals will not be easy, but at least we are all moving in the 
same direction.
    Thank you again for inviting me to testify.
    Chairman McKeon. Thank you.
    [The prepared statement of Ms. Flack follows:]

Statement of Teri E. Flack, Deputy Commissioner, Texas Higher Education 
                           Coordinating Board

    Thank you for inviting me to testify before you today. I appreciate 
this opportunity to discuss the Texas higher education master plan, 
Closing the Gaps by 2015, and the efforts going on in Texas to improve 
access and outreach for students.
    The Coordinating Board adopted Closing the Gaps in October 2000. As 
we look back on the development of the plan, we now realize that the 
real question asked by the many people on our planning committees was 
this: What would be the worst thing that could happen to Texas that 
education could prevent?
    We shortly realized that the ``worst thing'' would be for the dire 
projections made by the Texas State Demographer, Dr. Steve Murdock, to 
come true.
    Dr. Murdock for years has traveled around Texas on a campaign to 
awaken the state to the consequences of a trend that has continued for 
over a decade. Part of the trend was manifested in the fact that our 
population has grown faster than the growth of the number of people 
enrolled in, or graduating from, our colleges and universities. In 
particular, the fastest growing segment of the population, Hispanics, 
participated at a significantly lower rate than other groups despite 
the fact that Hispanic enrollments in higher education have grown 
substantially over the last decade. If we do not change the trend, 
Texas will gradually become a less and less well-educated state, and 
therefore a less prosperous state with fewer opportunities for all of 
our people.
    In economic terms, Murdock's projections show that by 2040, median 
household income in our state in constant dollars would drop by over 
$5000 (from its current level of $41,000). Multiplied by the number of 
households projected in 2040, the consequence would be a reduction of 
over $60 billion annually in income. So, opportunities for our people 
would contract, the state's economic competitiveness would diminish, 
and the overall quality of life would drop.
    If we cannot change the trend, the only educational category in 
Texas that would grow by 2040 would be the percentage of our workforce 
that has less than a college education.
    It also did not take long for us to realize that the trend is 
aggravated by the large gaps that exist within Texas and between Texas 
and the 10 most populous states in higher education participation, 
success, and quality.
    So ultimately the question became: How can we prevent the ``worst 
thing'' from happening to Texas? The answer became clear: we must close 
the gaps within Texas and between Texas and other states in higher 
education participation, success, excellence, and research. And, must 
have a performance system in place to measure whether we are making 
progress towards accomplishing the goals.
    Clearly, those four goals of closing the gaps by 2015 cannot be 
reached unless we also close similar gaps at all levels of education. 
The Closing the Gaps plan, clearly, rests on a pre-kindergarten through 
higher education philosophy.
    Of particular interest to the Subcommittee are the plan's first two 
goals: Close the Gaps in Participation rates across Texas to add 
500,000 more students, and Close the Gaps in Success by increasing by 
50 percent the number of degrees, certificates, and other identifiable 
student successes from high quality programs.
    The plan has three main strategies for achieving the participation 
and success goals: (1) improve student preparation for success; (2) 
affordability; and (3) build awareness about the importance of higher 
education to students and their families, promote preparation to enable 
students to succeed in higher education, and raise and reinforce 
motivation and aspirations to continue education beyond high school.
    The College for Texans campaign is a key effort for accomplishing 
these strategies. The single objective of the campaign is to bring the 
approximately 300,000 people, who would otherwise be missing from 
higher education in 2015, into our colleges and universities and have 
them prepared to succeed.
    The campaign is being pursued along two lines. One is a marketing 
and advertising effort. The other is a grassroots outreach effort to 
connect organizations and persons across the entire state in a common 
campaign (1) to reach the people who would otherwise be missing and 
anyone who influences their behavior, and (2) to provide information, 
build aspirations, and reinforce motivation to assist them in preparing 
well at every grade level for success in higher education. A fact sheet 
describing the campaign in more detail is included in your briefing 
materials.
    The theme of the campaign is ``Education: Go Get It.'' One of its 
most promising efforts is the establishment of Go Centers at high 
schools throughout the state. These centers are a grassroots network of 
community-based college recruiting centers that use student peer 
educators. The idea is for these ``G-Force members'' (who are both high 
school and college students) to create the momentum for other students 
to go to college. We currently have 48 in development but that number 
increases almost daily. A copy of a brochure describing the Go Centers 
is provided in your briefing materials. These centers are being funded 
through a combination of state, federal, and private funds.
    This is just one of many efforts Texas is engaged in to reach out 
to students. Although my time is up, I would be delighted to share 
information about other efforts. We believe that Closing the Gaps has 
changed the way we view education in the state of Texas. The state's 
leadership, our public and higher education communities, business 
leaders, and community-based organizations have all rallied to the 
call. Establishing a few very compelling goals, and providing 
strategies to achieve them, targets to aim for, and a performance 
system to measure our progress has given Texas a new direction. 
Achieving the goals won't be easy, but at least we are all moving in 
the same direction.
    Thank you for inviting me to testify. I would be happy to answer 
any questions you have.
                                 ______
                                 
    Chairman McKeon. Dr. Mitchem.

    STATEMENT OF DR. ARNOLD MITCHEM, PRESIDENT, COUNCIL FOR 
            OPPORTUNITY IN EDUCATION, WASHINGTON, DC

    Dr. Mitchem. Chairman McKeon, Congressman Kildee, members 
of the Subcommittee, I very much appreciate the opportunity to 
testify on the subject of Expanding Access to College in 
America: How the Higher Education Act Can Put College Within 
Reach.
    My name is Arnold Mitchem. I am President of the Council 
for Opportunity in Education. The council is an organization of 
over 900 colleges universities and agencies. It was organized 
in 1981 to promote the interest of low-income students, first-
generation students and disabled students aspiring to attend 
and succeed in college. Our particular legislative concern is 
the Federal TRIO programs.
    Mr. Chairman, thinking retrospectively, while we have as a 
country made substantial progress in terms of access since 
1965, we at the same time must recognize that there are still 
real gaps and inequalities. With this recognition, we can use 
the opportunity of this eighth reauthorization of the Higher 
Education Act to rededicate ourselves to the goals and 
challenges laid out to us by President Johnson in 1965 and 
President Nixon in 1972.
    In short, we have to begin to close long-standing gaps 
between income groups in terms of access and attainment. 
Second, let me suggest that this Subcommittee consider modeling 
the legislative strategies of 1972 which developed a coherent 
long-range plan to maximize opportunity for all income groups.
    Today, unlike 1972, it does not require the creation of any 
new program to attempt to accomplish this plan. Instead, I 
would suggest that what we need to do is to use this 
reauthorization to adopt a set of realistic and measurable 
access and attainment goals such as, reducing specific gaps 
between income groups by 1 percentage point a year, all to be 
accomplished over the next 5 years, covered by this 
reauthorization.
    Now, let me hasten to add that by proposing benchmarks, I 
am in no way suggesting that Congress alone should hold itself 
accountable for accomplishing these goals. Congress can set the 
tone, of course, provide resources, of course, and provide some 
direction. But all of the stakeholders, including the States, 
college presidents, TRIO and financial aid administrators have 
to be held responsible in the final analysis.
    So as a starting point in the discussion, I am suggesting 
three goals to improve access and attainment: First, we should 
move to reduce the gap in postsecondary enrollment rates 
between high school graduates from low-income families and 
other high school graduates. Here I am not arguing that every 
high school graduate should go immediately into postsecondary 
education, but I am saying that differences in college entrance 
rates should not be related to family income. You will note in 
Table 1 of my testimony, Mr. Chairman, that only 54 percent of 
low-income high school graduates go on to postsecondary 
education, while 75 percent of non low-income students enter 
postsecondary education.
    Second, we should move to reduce the gap in immediate 
enrollment in 4-year colleges between low-income high school 
graduates earning A's and B's and other high school graduates 
earning A's and B's.
    Third, we should move to reduce the gap in degree 
attainment between low-income students who enter college 
desiring to earn a baccalaureate degree and other students who 
enter college with that same goal.
    Finally, let me highlight the role of the TRIO programs in 
achieving these three goals. TRIO, as you know, became an 
integral part of the Federal strategy for achieving equal 
educational opportunity in 1972 because policymakers then 
recognized that financial aid is essential, but not sufficient 
in implementing the Federal strategy of removing barriers to 
access achievement and attainment. We have learned since that 
mobility and success of low-income students is a complex and 
difficult task and the TRIO programs take two approaches, the 
precollegiate programs, as well as the college-based programs. 
The precollegiate programs are Upward Bound and Talent Search. 
And EOC provides a mix of services including information, 
guidance, tutoring, supplemental instruction and work with 
parents. The college-based programs, like Student Supported 
Services and McNair, provide prefreshman summer programs, 
mentoring, tutoring, learning communities and more recently, 
academic advising and the College Enhancement Initiative, which 
deals with unmet financial need.
    Let me close by saying that we have been assured in the 
last 20 years that TRIO works because there has been in place 
an accountability mechanism known as Prior Experience. The 
Department allocates up to 15 points for applications competing 
for TRIO funds. These criteria are outcome-based. In the case 
of Student Support Services, for example, four points can be 
earned and assigned by the Secretary, if a 4-year institution, 
to the extent to which project participants in that program 
graduate from college. In the case of 2-year institutions, they 
can get up to four points to the extent to which project 
participants either graduate, that is get an Associate of Arts 
Degree, or transfer to a 4-year institution.
    Mr. Chairman, I think these kind of objectives and outcome 
goals fit into the benchmarks that I have proposed. Again, 
thank you for your consideration, sir.
    Chairman McKeon. Thank you.
    [The prepared statement of Dr. Mitchem follows:]

 Statement of Arnold L. Mitchem, President, Council for Opportunity in 
                               Education

    Chairman McKeon, Congressman Kildee, Members of the Sub-committee; 
I very much appreciate this opportunity to testify on the subject of 
Expanding Access to College in America: How the Higher Education Act 
Can Put College Within Reach. My name is Arnold Mitchem and I am 
President of the Council for Opportunity in Education. The Council is 
an organization of over 900 colleges, universities and agencies. It was 
founded in 1981 to advance the interests of low-income students, first-
generation students and disabled students aspiring to attend and 
succeed in college. Our particular legislative interest is the Federal 
TRIO Programs.
    The academic degrees that it took me several decades to earn hang 
in a place of honor in my home. But next to them, also in a place of 
honor, hangs my father's high school diploma. I placed it there because 
I wanted to remind my children--and perhaps more importantly myself--
that my educational accomplishments rested on his struggles and the 
struggles of others who came before.
    As Congress and the higher education community begin to focus on 
access during this eighth reauthorization of the Higher Education Act, 
I think that all of us would do well to examine its foundation and to 
look from where we have come. When President Lyndon Johnson signed the 
Higher Education Act into law on November 8, 1965 in San Marcos, Texas 
he focused on the 1.3 million young people who had graduated from high 
school the previous year and had not entered college. And he urged 
those attending that ceremony to:
        ``Look into the faces of your students and your children and 
        your grandchildren . . . tell them that a promise has been made 
        to them. Tell them that the leadership of your country believed 
        it is the obligation of your nation to provide and permit and 
        assist every child born in these borders to receive all the 
        education that they can take.''
    Five years later on March 19, 1970, President Richard Nixon sent 
his higher education message to Congress. The deliberations responding 
to that message resulted in the authorization of the Pell Grant 
program. In that message, President Nixon again focused on inequities 
that existed in American citizens' chances to attend college and the 
nation's responsibilities to address those inequities:
        ``No qualified student who wants to go to college should be 
        barred by lack of money. That has long been a great American 
        goal: I propose that we achieve it now... Something is 
        basically unequal about opportunity for higher education when a 
        young person whose family earns more than $15,000 a year is 
        nine times more likely to attend college than a young person 
        whose family earns less than $3,000. Something is basically 
        wrong with Federal policy toward higher education when it has 
        failed to correct this inequity and when government 
        programs...have largely operated without...a coherent long-
        range plan.''
    In 1972, the Congress did examine the premises of higher education 
policy and--with the establishment of the Pell Grant Program--
complimented by SEOG, Work-Study, loans and the Federal TRIO Programs--
developed a coherent long-range plan to maximize opportunity. And that 
plan has worked. The number of students participating in postsecondary 
education immediately after high school graduation has increased in the 
past thirty years and this increase has occurred across income levels. 
For example, in 1998 almost half of all low-income high school 
graduates immediately enrolled in college, a percentage twice as high 
as it was in 1972.
    But much remains to be done to assure a level playing field, 
particularly because longstanding gaps with regard to higher education 
opportunities between higher and lower income groups have not 
diminished dramatically. As each of you stressed during the recent 
reauthorization of the Elementary and Secondary Education Act in the 
historic No Child Left Behind legislation--a coherent plan requires 
accountability and benchmarking. An important component of the 2004 
Higher Education reauthorization could be ensuring such accountability.
    During this Reauthorization, let us set for ourselves some 
realistic, measurable goals. As a starting point of discussion, I would 
suggest that goals be agreed upon in three areas:
    <bullet> LAmerica should move to reduce the gap in postsecondary 
enrollment rates between high school graduates from low-income families 
and other high school graduates;
    <bullet> LAmerica should move to reduce the gap in immediate 
enrollment in four-year colleges between low-income high school 
graduates earning A's & B's and other high school graduates earning A's 
and B's; and
    <bullet> LAmerica should move to reduce the gap in degree 
attainment between low-income students who enter college desiring to 
earn a baccalaureate degree and other students who enter college with 
that same goal.
    Reducing the gap by one percentage point a year--five points over 
the years covered by the reauthorization--may be an appropriate goal. I 
have attached charts that suggest current differences between low-
income students and other students in each of these areas--and the 
targets I am proposing. But before I speak to what the TRIO Programs 
can and should do to help our nation achieve these goals--or other 
goals that emerge from your deliberations--let me clarify two points.
    <bullet> LFirst, I am not suggesting that every high school 
graduate immediately go on to postsecondary education, or that every A 
& B student go to a four-year college; or that every student who begins 
college with a goal of a bachelor's degree should earn one. What I am 
saying is let us work to assure that:
        <bullet> Ldifferences in college entrance rates,
        <bullet> Ldifferences in four-year college entrance rates among 
        our academically strongest students,
        <bullet> Land differences in college graduation rates are not a 
        result of family income or factors directly related to family 
        income.
    <bullet> LSecond, in proposing benchmarks to be accomplished during 
the five years of this upcoming reauthorization, I am not suggesting 
that Congress alone should hold itself accountable for accomplishing 
these goals. As President Johnson noted, ``The federal government has 
neither the wish nor the power to dictate.'' What I am putting forward 
is that all of us together as a nation--the federal government, states, 
college presidents and administrators (regardless of sector), lenders, 
financial aid administrators, TRIO staff members, and students--hold 
ourselves accountable for planning to reach these targets--and 
effectively reaching them.
    It is critical that access and opportunity for low-income students 
be the focus of your deliberations during this reauthorization and that 
that your focus is not lost among the very real and complex details of 
everything from loan consolidation, to loan limits, to needs analysis.
TRIO's Pre-College Programs--Educational Opportunity Centers (EOCs), 
        Talent Search, and Upward Bound--Assist Low-income Students in 
        Preparing for and Enrolling in Postsecondary Education.
    TRIO's Pre-College Programs serve over 450,000 youth ``both in-
school and out of school youth--and over 215,00 adults and assist them 
in preparing for college, applying for college, and applying for 
student financial aid. TRIO Programs also involve students' families in 
the college preparation process. Through workshops, meetings with 
family members, and one-on-one counseling that begin as early as the 
sixth grade, EOCs, Talent Search, and Upward Bound assist students and 
their families in navigating the road to college. TRIO Programs are 
there to assure students and families that funds are available to 
finance their college education, to make sure they enroll in 
challenging college-preparatory courses, and to provide academic 
assistance through tutoring, supplemental courses, and summer programs 
to fill in any gaps in the student's academic preparation.
TRIO's Pre-College Programs Assist Low-income and First-Generation 
        Students in Setting and Achieving High Goals.
    When the Higher Education Act was authorized in 1965, our view of 
the obstacles facing low-income students was less clear than it is 
today. Inequities in educational preparation related to income were 
less obvious. Other obstacles faced by many low-income and first-
generation students such as lack of information and lack of peer and 
family support were not well understood. Committee hearings and studies 
related to No Child Left Behind provide a thorough grounding in the 
non-financial obstacles that low-income, first-generation and disabled 
students face in preparing for college. Schools alone cannot assist 
disadvantaged youth in maintaining high aspirations and developing the 
competencies to achieve those aspirations. They need informed, 
intrusive and caring support and information from the whole community, 
and TRIO Programs have historically become a vital link in that support
TRIO's College Programs--the Ronald E. McNair Post-baccalaureate 
        Achievement Program and Student Support Services--Assist 
        Students in Remaining in College through Graduation and 
        Achieving their Career Goals.
    Low-income students who enter college intending to complete a four-
year degree have about a 75% chance of earning a baccalaureate degree 
as their more affluent peers. Numerous factors contribute to student 
attrition--from the competing demands of work (a national study of TRIO 
college students, for example, found that the average student worked 
over 25 hours each week), to gaps in academic preparation, to lack of 
confidence. But TRIO services have been shown to be very effective in 
increasing retention--from 40% to 49% through the third year. TRIO's 
college programs--Student Support Services and McNair--provide these 
vital services to over 200,000 students annually. But funding currently 
places unacceptable levels on the number of students that can be 
reached. Typically Student Support Services projects currently serve 
fewer than 500 students and in California alone there are more than 37 
colleges that enroll over 1,000 Pell recipients who could benefit from 
such support. In my view, Congress must seriously consider how best to 
protect its student aid investment by assisting institutions in 
ensuring greater student success. TRIO's Student Support Services 
programs provide critical assistance in this area. They couple 
supportive services with Pre-freshman summer programs and appropriate 
financial aid to successfully increase student retention rates.
    The Council for Opportunity in Education believes that two 
hallmarks of the TRIO authority must be preserved during this 
Reauthorization. The first is the class-based nature of TRIO targeting. 
In deliberations preceding the 1980 Reauthorization of the Higher 
Education, TRIO professionals came together in meetings across the 
country to make recommendations regarding the focus of TRIO. At that 
time, and before every reauthorization thereafter, the TRIO community 
has stood behind current eligibility criteria and resisted efforts to 
focus TRIO services on specific racial or ethnic groups or regions of 
the country. We ask the Committee to maintain that element of program 
integrity.
    I also want to point out that since 1980, the Prior Experience 
provision in the TRIO legislation has provided an accountability 
mechanism for institutions and agencies that receive TRIO funds without 
keeping other institutions from sponsoring TRIO Programs. New 
applicants for TRIO funds have a better chance of being funded that the 
same would have in applying for other Department of Education 
administered programs. For example, on average over the last three 
years of grant competitions, a ``new applicant'' has had a 38% chance 
of receiving a TRIO grant. The same college's chance of being funded as 
a new applicant would only be 19% in either the Title III, Part A 
Program or GEAR UP. We ask, too, that you protect Prior Experience in 
your deliberations.
    President Bush, the full Committee and the entire nation are justly 
proud of the distance traveled in No Child Left Behind. And we 
collectively through our elementary, middle, and high schools 
acknowledge and accept that important responsibility. Higher education 
has a somewhat different responsibility, however. Colleges and 
universities must not only leave no American behind, they must also, 
through the creation and transfer of knowledge, continue to move entire 
generations forward to a better life. By addressing the non-financial 
barriers to access and success in college, TRIO Programs assure that 
students from low-income families, students with disabilities, and 
students who are in the first-generation in their family to attend 
college have access to the mobility that only higher education affords. 
In our knowledge-based, global economy, the importance of such 
education can only increase.
    The Council and the TRIO community look forward to working with the 
Subcommittee throughout the reauthorization process to strengthen and 
improve TRIO and other student assistance programs. I appreciate this 
opportunity to testify and I would be pleased to answer any questions 
at this time.
                                 ______
                                 
    [An attachment to Dr. Mitchem's statement follows:]
    [GRAPHIC] [TIFF OMITTED] 90131.001
    
    Chairman McKeon. Mr. Dreyfus.


     STATEMENT OF MARK DREYFUS, PRESIDENT, ECPI COLLEGE OF 
              TECHNOLOGY, VIRGINIA BEACH, VIRGINIA

    Mr. Dreyfus. Thank you, Mr. Chairman, Representative Kildee 
and members of the Subcommittee for giving me this opportunity 
to speak about some of the access barriers to higher education.
    I speak to you in both my capacity as President of the ECPI 
College of Technology and affiliates, with 14 regionally and 
nationally accredited campuses in Virginia, North Carolina and 
South Carolina, and as Chairman of the Career College 
Association's Board of Directors.
    CCA's 1,100 members educate and support more than one 
million students each year for employment in over 200 
occupational fields. Our institutions cover the full gamut of 
postsecondary education, from short-term certificate and 
diploma programs, up to and including doctoral programs.
    It is in this capacity I addressed four issues in my 
written testimony that pose significant barriers to students 
seeking postsecondary education. I will speak briefly on three. 
They are obstacles to transfer of credit, limitations in the 
Federal investment of postsecondary education, and current 
restrictions to providers of distance education.
    Nearly 50 percent of the current postsecondary student 
population is nontraditional students, nontraditional being 
defined as the adult learner, nonresidential or members of the 
military or transfer students. Unfortunately, most Title IV aid 
programs and regulations were designed for the typical 4-year 
residential student.
    One access barrier is the limitations on transfer of 
credit. A study by the National Center for Education and 
Statistics shows almost one-half of all postsecondary students 
will attend more than one institution. Currently, the higher 
education community has no incentive to accept credits from 
other schools. In fact, I believe there is a disincentive since 
evaluating credits is time consuming and credits transferred 
reduces the courses taken at the receiving school.
    During the 1998 Amendments to the Higher Education Act, 
Congress instructed the Department of Education to conduct a 
study on the transfer of credit issue. To date, this study has 
not been completed.
    Therefore, the Career College Association's Foundation 
commissioned the Institute for Higher Education Policy to study 
the experiences of students who attempt to transfer credits. 
The study found significant barriers against transfer of credit 
from nationally accredited institutions to regionally 
accredited institutions.
    When a student is not permitted to transfer credits, he or 
she must repeat courses, which costs both time and money to the 
student and to Federal and State taxpayers.
    I strongly believe though that colleges should be allowed 
to preserve their academic freedom but not at the expense of 
the student.
    I would also ask Congress to continue to make significant 
investments in postsecondary education and modify regulations 
to improve options for nontraditional students.
    CCA strongly supports Federal programs that allow students 
to achieve their highest educational goals without excessive 
debt. Congress should continue its efforts to make significant 
funding increases to the Pell Grant program and to explore 
proposals such as the concept of front-loading Federal grant 
aid to increase assistance during the first 2 years of 
postsecondary education. Additionally, the Pell Grant program 
should be modified to allow students who participate in year-
round programs to obtain additional grant funding as they 
complete each academic year, without regard to whether they 
have crossed over into a new award year. This would help 
students who are trying to complete their educational programs 
in the minimum calendar time.
    CCA also supports an increase to the subsidized and 
unsubsidized loan limits, with special emphasis given to 
students who are in years one and two where assistance is often 
most needed. Equalizing loan limits across all 4 years and 
providing access to a Federal loan program for independent 
students similar to the parent loan program is necessary. 
Currently, if independent students need to borrow additional 
funds beyond the current loan limits, the only option is 
private loans at higher interest rates.
    Finally, the current restrictions to providers of distance 
education; The Congressional Web-based Education Commission 
recommended a full review and, if necessary, a revision of the 
50 percent rule to reduce barriers. However, I share this 
Committee's concern that in expanding the use of distance 
education, it is important to ensure a quality education, 
including a requirement that distance education programs be 
accredited by an agency specifically approved by the Secretary 
of Education, and they must demonstrate student achievement, 
student and faculty preparedness, quality interaction, learning 
resources, student support services and the integrity of 
student participation.
    Thank you again for this opportunity to speak with you. I 
would be happy to answer any questions you may have.
    Chairman McKeon. Thank you.
    [The prepared statement of Mr. Dreyfus follows:]

Statement of Mark B. Dreyfus, President, ECPI College of Technology and 
                  Chairman, Career College Association

    Thank you Mr. Chairman, Representative Kildee and members of the 
Subcommittee for giving me this opportunity to speak about some of the 
access barriers to higher education.
    I speak to you in both my capacity as President of ECPI College of 
Technology and affiliates, with 14 regionally and nationally accredited 
campuses in Virginia, North Carolina and South Carolina, and as 
Chairman of the Career College Association Board of Directors.
    CCA's 1,100 members educate and support more than a million 
students each year for employment in over 200 occupational fields. Our 
institutions cover the full gamut of postsecondary education, from 
short-term certificate and diploma programs up to and including 
doctoral programs.
    It is in this capacity I addressed three issues in my written 
testimony that pose significant barriers to students seeking 
postsecondary education. I will speak briefly on three and refer you to 
my written testimony for the full set of recommendations that we would 
hope that you would consider during the reauthorization process.
    1. LObstacles to transfer of credit;
    2. LCurrent restrictions to providers of distance education; and
    3. LLimitations in the federal investment of postsecondary 
education.
    Nearly 50% of the current postsecondary student population is non-
traditional students. Non-traditional being defined as the adult 
learner, non-residential, or members of the military or transfer 
students. Unfortunately, most Title IV aid programs and regulations 
were designed for the typical 4-year residential student.
One access barrier is the limitations on transfer of credit
    A study by the National Center for Education Statistics, shows 
almost 1/2 of all postsecondary students will attend more than one 
institution. Currently the higher education community has no incentive 
to accept credits from other schools. In fact, I believe there is a 
disincentive since evaluating credits is time consuming and credits 
transferred reduces the courses taken at the receiving school.
    During the 1998 Amendments to the Higher Education Act, Congress 
instructed the Department of Education to conduct a study on the 
Transfer of Credit issue. To date, this study has not been completed.
    Therefore, the Career College Association's Foundation commissioned 
the Institute for Higher Education Policy to study the experiences of 
students who attempt to transfer credits. The study found significant 
barriers against transfer of credit from nationally accredited 
institutions to regionally accredited institutions.
    When a student is not permitted to transfer credits, he or she must 
repeat courses, which costs both time and money to the student and to 
federal and state taxpayers.
    I strongly believe colleges should be allowed to preserve their 
academic freedom but not at the expense of the student.
    I would also ask Congress to continue to make significant 
investments in Postsecondary Education and modify regulations to 
improve options for non-traditional students.
    CCA strongly supports federal programs that allow students to 
achieve their highest educational goals without excessive debt. The 
Congress should continue its efforts to make significant funding 
increases to the Pell Grant program and to explore proposals such as 
the concept of ``front-loading'' federal grant aid to increase 
assistance during the first two years of postsecondary education. 
Additionally, the Pell Grant program should be modified to allow 
students who participate in yearround programs to obtain additional 
grant funding as they complete each academic year, without regard to 
whether they have crossed over into a new award year. This would help 
students who are trying to complete their educational programs in the 
minimum calendar time.
    CCA also supports an increase to the subsidized and unsubsidized 
student loan limits, with special emphasis given to students who are in 
years one and two where assistance is often most needed. Equalizing 
loan limits across all four years and providing access to a federal 
loan program for independent students similar to the parent loan 
program. Currently, if independent students need to borrow additional 
funds beyond the current loan limits, the only option is private loans 
at higher interest rates.
    And finally, the current restrictions to providers of distance 
education The Congressional Web-based Education Commission recommended 
a full review and, if necessary, a revision of the 50% rule to reduce 
barriers. However, I share this Committees concern that any expansion 
of this rule needs to ensure a quality education through accreditation 
and other requirements.
    Thank you again for this opportunity to speak with you. I would be 
happy to answer any questions you may have.
                                 ______
                                 
    Chairman McKeon. Many, if not all of you, talked about 
financing as a barrier. And we know we have Pell Grants; we 
know we have student loans; we know we have TRIO, GEAR UP and 
these other financial aid programs. But, they all start fairly 
low at the front end as a freshman and build as the student 
gets to retirement. And we have figures that show that an 
inordinately high number of students drop out in the first 
year. I have been toying with an idea, and I would like to hear 
your thoughts on it, of changing the way we make Pell Grants 
available. In other words, instead of starting low as a 
freshman and getting higher as a senior, if we started higher 
with the Pell Grant, if we just reversed that and had the Pell 
Grant higher at the front end, getting lower toward the senior 
year, and then letting the student loan increase, where if a 
student had to drop out, he would not be left with as big a 
financial burden. Plus, if we could have a heavier load on the 
front end with the Pell Grant, if we are talking about a first-
generation student or a student that really is a little unsure 
of his chance to really complete his education, if he could 
concentrate the first year and not have to worry about 
finances, spend most of that out of aid money, then as he 
builds confidence--he or she builds confidence as they go 
through their curriculum--then they would feel better about 
investing in themselves and getting their loans at the other 
end.
    So we would have the loans starting lower and building 
higher, the Pell Grant starting higher and getting lower. How 
does something like that sound to you? Dr. Mitchem.
    Dr. Mitchem. Mr. Chairman, in 1995 the General Accounting 
Office did a study looking at the impact and effect of grants 
on low-income students and discovered there was a very positive 
correlation in terms of their retention and persistence. I 
think any proposal and anything you can do to get more grant 
aid to low-income students would be clearly beneficial. The 
idea of putting more money in the first 2 years for low-income 
students, I think, is absolutely sound because indeed many of 
these students, if indeed they have problems, it is usually in 
those first 2 years. And when they do drop out, if indeed they 
are saddled with huge loans, it makes their life even more 
miserable or difficult. One could argue that their life is 
worse off rather than if they had not started at all. So 
anything that could address those issues seems to me would be 
very beneficial and very important, and I think it is something 
that we ought to seriously consider.
    There are other concerns. And I don't know if indeed--the 
latter part of your proposal, in terms of reducing it on the 
junior and senior end, is problematic. But indeed, and from the 
point of view of low-income students, I think that more money 
on the front end makes a lot of sense.
    Chairman McKeon. Anyone else have any comments on that 
idea? Dr. Fonte.
    Dr. Fonte. Yes, speaking as an individual community college 
president, I would strongly support the idea of front-loading. 
I think, for the reasons stated, that the first-generation, 
first-time-in college student is very unlikely to take out a 
loan, and it really becomes a barrier. So if you could reduce 
that burden at the front end, it would make a huge, huge 
difference to people. And I would remind you that when there 
was the hearing that you had in Round Rock, Texas several weeks 
ago, what was surprising--.
    Chairman McKeon. Round Rock, Texas?
    Dr. Fonte. --what was surprising was, not only was that 
supported by community college folks who were in attendance, 
but it actually was supported by representatives of all sectors 
who were in attendance at that hearing.
    So while you do not normally hear that, I think when you 
got down to the grassroots and heard from people who deal with 
the issue on a day-to-day basis of people who are entering 
higher education what the barriers are I think you saw all 
those financial aid directors from all the universities and the 
community colleges also thinking that it is a fine thing to do.
    Surely anything in the final analysis that increases the 
Pell Grant is important, especially for that incoming first-
generation, never-been-in-college student, or no one in the 
family has ever gone before.
    Chairman McKeon. Thank you. Ms. Milano.
    Ms. Milano. Mr. Chairman, I would have to agree with both 
of the witnesses because what we see is that students are 
working enormous numbers of hours while they are in college in 
their first year, then that transitional year is particularly 
difficult.
    So if they could have additional funding through the Pell 
Grants through their first and second year, I think you would 
see the drop-out rate reduced considerably.
    Chairman McKeon. Thank you. My time is up, but Mr. Dreyfus, 
if you could.
    Mr. Dreyfus. OK. Many of the jobs and the technology fields 
are not going to require a 4-year degree. More and more 
students need 2-year degrees and those first 2 years become 
that much more critical. So any increased funding in the first 
years, I think, would help access for many low-income students.
    Chairman McKeon. Thank you very much. Mr. Kildee.
    Mr. Kildee. Thank you, Mr. Chairman.
    Dr. Dreyfus, you mentioned in your testimony the support 
for raising loan limits. If we are going to entertain raising 
those loan limits, shouldn't we do something to deal with the 
high level of student debt, which is becoming an increasing 
problem? This Committee reported out a bill this year which 
just passed on the floor for loan forgiveness for those who go 
into say teaching a math, science, special education or 
reading. Can we do more on loan forgiveness to help address 
this question of higher debt, even though you recognize that 
the expansion of loans could be a positive?
    Mr. Dreyfus. I definitely believe the proposal the Chairman 
made earlier about increasing the first 2 years' Pell Grants 
would certainly help reduce some of that debt for students. 
There also may be incentives. We might be able to get 
corporations to participate if they hire students or get some 
kind of participation from the community at large, particularly 
for students that are from low-income areas. They may be able 
to--once they get out of school--look at the actual track 
record of that student and see. And, if they are supported and 
they are in a job, hopefully there would be some kind of a 
sharing with the company that would help them repay some of 
that debt as well.
    Mr. Kildee. That's an interesting point. And give a tax 
incentive maybe for the business who might do that. Congress 
does that now. Congress just started that, I think this year, 
where we give some loan forgiveness to our own staff, and I 
know a number of people on my staff, both back in Michigan and 
here are taking advantage of that. So that might be something 
we could look at and maybe give some tax incentive for 
companies that do assist in paying back those loans.
    Dr. Mitchem, it is always interesting and rewarding to work 
with you, as I have done for a number of years. You talked 
about making TRIO reach more students. Is it an issue, the fact 
that they aren't reaching more students, an issue of program 
efficiency or more funding overall or a combination of both? If 
you could address that.
    Dr. Mitchem. Yes, I have enjoyed working with you too, Mr. 
Kildee, over the years.
    The answer is simple. It is a function of resources. We are 
serving 7 percent, and at this point in time, it may be getting 
worse. The population we serve is one of the fastest growing 
populations in the United States in terms of demographics, and 
so it is just a function of resources. I am afraid there is no 
other answer.
    I think programs are really being stretched to the bone. 
And, one of the things that we propose is you try to increase 
the amount of base grants. There have been so many economies 
and so many efficiencies, that I am afraid that--particularly 
in our Student Support Services program. It was pointed out by 
one study, by Westat, several years ago it is going to get to 
the point that it is going to be so efficient that we are not 
going to have any service because the gruel has gotten that 
thin in terms of contacts with students. So I do not think we 
can go there anymore. I think really it is a function of 
dollars, sir.
    Mr. Kildee. I appreciate your straight and honest answer on 
that, which we always get from you.
    Dr. Fonte, your testimony mentioned support of waiving the 
50 percent rule in certain circumstances. Since there is some 
interest in eliminating that 50 percent rule, would we need 
certain protections to prevent abuse? And what might those 
protections be?
    Dr. Fonte. I think the answer is clearly, yes. We think it 
is an area that is a growing area. We need to recognize it. I 
think some of the other witnesses mentioned some safeguards. I 
think it would be appropriate, either the safeguards ought to 
be put in the hands of the Secretary or if Congress wanted to 
put them in the legislation, I think it would be fine. Surely, 
the fact that we have to assure this is quality instruction, 
either through forms of accreditation and other standards, to 
assure that the students are learning. We want to make sure we 
avoid any potential for fraud. Those kinds of things, of 
course, would be of concern. But, it is clearly a growing 
area--one that we need to recognize. But, I think you should 
not simply open the door without some restrictions either. Like 
I said, either with by allowing the Secretary to do it, or by 
Congress itself, making sure that there are provisions to 
assure that.
    Mr. Kildee. If I may, just one follow-up. If the Secretary 
was granted the power to waiver, would you give them discretion 
to kind of tailor the waiver?
    Dr. Fonte. Yes. Absolutely. I think.
    Mr. Kildee. Thank you very much. Thank you.
    Chairman McKeon. Thank you. Mr. Carter.
    Mr. Carter. Thank you, Mr. Chairman. I want to address this 
from the side of the consumer, the student. Having been blessed 
with four children, all of whom have attended institutes of 
higher education, several of my children have taken courses at 
Austin Community College. I still have two in college. I think 
I will have them in college until I am dead. One of them, I 
like to say, is in the seven-going-on-ten-year program. But, 
from the parent standpoint and from the student's standpoint, 
one of the things that we see, we feel like we see, is that as 
resources are improved, as the Pell Grants are improved, as 
they increase the ability to borrow more and more money, it 
seems that as we raise, you raise. And, constantly the cost 
goes above what is available and we are seeking more and more 
resources from the government. The students are overwhelmed 
with their debt. That is the biggest understatement that's been 
made here today. What are the institutes of higher education 
doing to bring down costs? I never hear anybody talking about 
what we are doing to bring down costs to the students so they 
can better afford the colleges and universities. Is this 
distance education going to be something that would be at a 
level that would be cheaper to a student to obtain an education 
or at least a portion of his education? Are there any things 
being done to bring down the costs of education, because it 
seems like it is growing in geometric progressions? Dr. Fonte, 
you can start, I guess.
    Dr. Fonte. Distance education is clearly one that might 
help address the facility-building costs. I think that is 
probably one of the areas. It is not necessarily, you know, in 
terms of delivery of instruction, a cheaper mode of 
instruction. In fact, it is, in some cases, more complicated to 
assure the quality level that we are concerned about. But, 
clearly, it is a factor in the reduction of facility costs. I 
think that is important. I think you will find many initiatives 
that colleges and universities are working on, certain energy-
management programs, particularly, that we at our school have 
undertaken have saved literally millions of dollars.
    And you know, it is kind of good news/bad news when you get 
a reduction in State appropriations. I think you squeeze and 
you squeeze, and you try to figure out what you can do that 
does not detract from delivery of services to students. But it 
is, we think, a very lean period. And, we think we have 
squeezed a lot. And, we have been forced by the State to try to 
make sure that we are as lean as we possibly can.
    And, as I said earlier, community colleges just hate the 
concept of ever raising tuition because they know what an 
impact it makes on access. I think in the last year, we 
actually had to submit a report to our coordinating board that 
described every way that we approached the appropriation 
reduction of 7 percent. We had literally 10 pages of items. I 
just mentioned one or two. But, I do think that is happening 
nationally, that the reduction in State funds is actually 
forcing institutions to scrub every conceivable aspect of their 
institution together. I think we are feeling we are down to the 
marrow, so we are concerned about anything future, which is 
why, obviously, Federal financial aid is so important for 
access to students. But, we do think we are trying; at least as 
a sector. Community colleges do the very best we can with the 
dollars we have.
    Mr. Carter. We clearly have a gap, as Dr. Mitchem was 
talking about. We have a large sector that we need to encourage 
to get into higher education. But, encouraging people to get 
into huge amounts of debt is awfully hard on a lot of people, 
and many, many of those people struggle with debt from major 
universities for 20 years paying off that debt.
    Dr. Fonte. Low tuition institutions, and we would like to 
be able to fill that gap that is still missing, and that is 
really our objective in terms of community colleges' role.
    Mr. Carter. Thank you. That is all I have, Mr. Chairman.
    Chairman McKeon. Thank you.
    Mr. Van Hollen.
    Mr. Van Hollen. Thank you, Mr. Chairman.
    Just to follow up on that question, Dr. Fonte and others, 
in Maryland just last week we had an announcement from the 
Board of Regents that as a result of State cutbacks in higher 
education, tuitions at institutions of higher education were 
going to increase as much as 21 percent next year, a huge 
increase, and those changes are going to take place midyear, so 
students who entered in September at one tuition are all of a 
sudden facing much higher tuitions. This is an issue that is 
very much on the minds of not just of the students in Maryland, 
but around the country.
    As you pointed out, community colleges are really--we want 
to insulate all students from this, but community colleges have 
been the gateway for students who couldn't afford even bundling 
various resources together from grants and loans. And so I am 
especially concerned about the increase in tuition at community 
colleges. What has been in the last year, 12 months--what has 
been on average the increase in community college tuitions 
around the country?
    Dr. Fonte. I do not really know across the country, but 
when community colleges raise tuition, they do not raise it in 
terms of 10 or $15, they raise it $1 per credit hour or $2 a 
credit hour. I think there have been increases in Texas. I 
think generally the increase that I have seen--and we are 
putting together a budget right now, so we have been looking at 
this information--is about $2 or $3 a credit hour, which 
essentially means it is about $10 a course. And, I think that 
is fairly common, 7.9 percent, I guess, is the percent that I 
see that AACC has provided. But I think that that is--it is 
trying to be as little as possible. The percentages may even be 
not reflective. The dollar amounts are fairly low, but we are 
trying to keep it as low as possible.
    Mr. Van Hollen. As I understood your testimony, the No. 1--
the best thing that the Federal Government could do to help 
community colleges, and it sounds like many others, is to 
increase the value of the Pell Grant?
    Dr. Fonte. Absolutely.
    Mr. Van Hollen. With respect to the TRIO programs and the 
GEAR UP programs, are there any changes in the authorization 
that would be more helpful, or do you have all the authority 
you need? Is it a question of resources? Is there anything in 
the authorization for those programs as you know for--there are 
a number of subprograms--where you need additional flexibility 
to allow you to do what you want to do with the resources that 
you are provided?
    Dr. Mitchem. In terms of the TRIO programs, in terms of the 
cycle, there are no major proposals that we are venturing forth 
with. One of the things that would be very helpful, currently 
TRIO programs are funded on 4-year cycles, and some TRIO 
programs, if they score very highly, receive funds for 5 years. 
We would like to extend that benefit to all programs.
    Secondly, we would like to increase the base grant of TRIO 
programs I referenced earlier. We need to get more available 
money as well as new money into these programs. We think the 
base grants need to be increased.
    And then there is a third recommendation that is coming 
from our community. Our community feels very, very strong that 
they would like to somehow participate in some kind of loan 
forgiveness program like teachers. It is very difficult to 
attract and retain capable people with a very humanistic bent, 
and that is where our people are. And many of them have loans, 
and as has been pointed out here, and Mr. Carter and others 
have talked about the loan burden, many people working in these 
programs are experiencing loan burdens, and they would like to 
participate in some of these loan forgiveness programs as 
Congress has discussed.
    Those are the key things we are seeking in this 
reauthorization.
    Mr. Van Hollen. We have heard testimony from you and in 
previous hearings about the fact that many low-income and 
disadvantaged students have a much higher dropout rate in the 
early years in college and universities. Are these programs, in 
your estimation--have they been effective in reducing that 
trend, and what more can we be doing to reduce that dropout 
rate in the early years?
    Dr. Mitchem. In the case of the TRIO program, they were not 
specifically designed to address a dropout issue. That is a 
broader and deeper issue. If you look at the preparatory 
programs and Upward Bound, it was designed really as a program 
to get students into colleges and universities. A real serious 
dropout program, it seems to me, would look more like a Job 
Corps program than an Upward Bound program. TRIO does not 
really assume the role of addressing the dropout issue as such. 
In the case of Upward Bound, as you know or do not know, 90 
percent of the students who participate indeed go on to 
college. They do better than their counterparts in persisting 
and remaining in college. TRIO programs are not designed to be 
dropout programs. They are college prep programs to create 
greater equities in terms of our managerial and leadership and 
decisionmaking class in this society.
    Dr. Fonte. If you mean dropping out of college, clearly 
college support services--TRIO programs are really important--
have been a critical determinant to focus in on those students. 
I think it is very important to intervene at that point in 
time. I also do think it is very important that students take 
the right courses in high school and are prepared, whether or 
not some variation of that maybe can be done through TRIO. But, 
I would like to make sure the kind of effort we are trying to 
do in Texas, which is to encourage students to take a 
recommended high school curriculum, is something that is done, 
and there is intervention. If that intervention is not done 
with the students who in the past have not traditionally gone 
to college, they will simply be unprepared. They will have to 
take developmental courses when they come.
    So it really becomes important, both the college support 
services grant of TRIO and anything else that expands that 
intervention also at the high school level, to make sure the 
students take the right courses in addition to learning about 
financial aid, et cetera, et cetera. But, it is really 
important in the preparation.
    Chairman McKeon. Thank you.
    Mr. Keller.
    Mr. Keller. Thank you, Mr. Chairman, and I am going to 
limit my comments and questions to the Pell Grant program, 
which I think is one of the single most important programs we 
have here in Congress.
    I have the honor of serving as chairman of the 
Congressional Pell Grant Caucus. I would not have gone to 
college but for the Pell Grant program. Listening to Mr. Kildee 
on the Pell Grant issue, and I certainly know that he shares 
the philosophy that it is a great program, you would think 
somehow we have cut this program or not spent enough money. 
And, I have to tell you, the stats when I was elected in 
November of 2000, we spent 7.6 billion on Pell Grants. Last 
week, we spent 12.3 billion. That is a 62 percent increase over 
the last 3 years, so we have made a historic investment, the 
largest in the history of the United States, in Pell Grants. 
That 62 percent increase has only translated in for each 
student $3,300 per year back then in November of 2000, so now 
$4,050 per year. So the buying power has been a lot less than 
what we hope for. And, there is one big reason for that, and 
that is there is a million more children going to college this 
year than were going then. So we had from 4 million students 
getting the Pell Grant to 5 million. It spreads the money a lot 
thinner.
    The other challenge I want to talk with you about that has 
faced students, with respect to the buying power, is that while 
we have been increasing their grant, 23 percent, the tuition 
increases have gone up more than that at State universities--so 
it almost cancels that out. And it is frustrating when you are 
spending all this money just to see the buying power 
diminished.
    Do you have any thoughts, Dr. Fonte, about what we should 
do about that situation with the tuition increasing? I know 
community colleges are not going up that much, but at a rate 
that almost cancels out the Pell Grant increase?
    Dr. Fonte. I do not think I can add anything to what you 
already said.
    Ms. Milano. Yes. I just would like to say these privately 
supported college access programs do offer students and 
provides students with grants to supplement what it is the Pell 
Grant provides and loans and so on. And, the dropout rate of 
these students who have just a little bit more money, maybe 
$1,000 or $2,000, is significantly lower than it is for 
students without these grants. So a big part of the issue is 
simply money.
    Mr. Keller. But, I am saying if you increase it 62 percent, 
and it does not mean anything because tuition has gone up. What 
have we really done?
    Ms. Milano. The State tuition piece of it is killing these 
students. These increases in college tuition is absolutely 
killing these students, and we are pricing them out of the 
market.
    Mr. Keller. Let me go to the second question. The other 
thing I am wrestling with now as we write this bill, is take a 
student, for example, who is a premed kid, low-income family, 
and parents make $37,000. He is going to get the full $4,050, 
but that is not going to be enough to pay for things like room 
and board. So, he is eligible for the Pell Grant. If he works 
part time, and he makes an additional $9,000 working part 
time--and, by the way, I think this kid has no business working 
part time since he is going to be taking organic chemistry and 
physics, and he needs to be worrying about getting a 4.0 and 
not worry about washing dishes--but if he takes the initiative 
and makes $9,000 to help him pay the bills, guess what? He does 
not get a Pell Grant anymore. He has priced himself out. That 
is a challenge, and that was brought to me by my universities 
in Florida.
    Dr. Mitchem, do you have any ideas about how we change this 
so we do not create a disincentive for ambitious young people?
    Dr. Mitchem. I wish I did, but, no, I do not. It is 
unfortunate. And, what is even more unfortunate or equally 
unfortunate is when that young man graduates, he is going to 
have a huge debt burden. And, he has to borrow more money to go 
to medical school. And, no, I do not have any answers, sir.
    Chairman McKeon. How about you, Ms. Flack, do you have any 
ideas about that?
    Ms. Flack. Obviously, the issue that Texas faces is one 
that you, I think, have eloquently described. And, that is how 
do we get students that cannot afford to go to college into 
college, and successfully complete their college education 
without throwing up obstacles and without throwing up barriers 
to that success. Certainly barriers--like financial barriers--
that, in essence, we might be able to help them overcome.
    I want to just make one comment about the increase in 
tuition and fees. Texas has not gone up as rapidly as some 
other States because historically at the universities tuition 
has not been deregulated to a great extent. And, the 
legislature just this past session that ended on June 2 
deregulated tuition for our universities for the first time in 
history, and they did that primarily because they could not 
afford to provide adequate support.
    What we are seeing since 1989 in Texas is a diminishing 
share. If you think of the pie of who pays for college, you 
have government, you have students and their parents, and you 
have private sources. And what we have seen is a really 
significant shift in Texas from State support in higher 
education to the backs of the parents and their students. And, 
it has been a real dilemma. We have not raised tuition and fees 
to the extent that other States have seen. And, we are not, at 
this point, sure how deregulation is going to affect our 
institutions because we have some that can raise it through the 
roof, and no one would say anything about it, and we have 
others who have even in the limited deregulation we have, never 
been able to raise their fees up to the maximum.
    But, part of what the legislature did was it said, ``If you 
want to raise your fees above a certain amount, you have to set 
aside a certain percentage of that for financial aid. You have 
to give some of that money back.'' And, philosophically, we 
have some members who are struggling with that because, in 
essence, you are saying to one student, pay for another student 
to go to college.
    The Pell Grant provides students with an opportunity. To go 
back to your original comment about the fact that Congress has 
raised the Pell Grant amount substantially, but institutions 
have raised tuition and fees, I think most people would say 
they are very grateful to Congress for having raised it that 
amount because without that, we would have disadvantaged 
students significantly more than they do now.
    But, I think we cannot ignore the fact that States struggle 
with providing adequate support to higher education. And yes, 
Representative Carter, I agree with you. We have to look for 
efficiencies, and we have to ensure that our institutions do 
not just raise support. But, what we are finding, what one of 
the studies that we looked at earlier, is that, in essence, for 
every dollar lost in State support, you have to raise tuition 
$2 to make up for that loss. And, I think that is what some of 
our States and some of our institutions are facing at the 
moment. That does not help you guys necessarily, but I want to 
frame the discussion in a way that would get away from the 
notion that institutions are just raising their tuition and 
fees.
    Chairman McKeon. We are kind of up against a time barrier. 
I know we are going to have some votes here, and we want to get 
as many Members' questions in before we have to leave.
    Mr. Hinojosa.
    Mr. Hinojosa. Thank you very much, Mr. Chairman.
    I wish to commend Chairman McKeon and Ranking Member Kildee 
for assembling such a strong and well-rounded panel of 
witnesses.
    My first question is to my friend Dr. Arnold Mitchem, 
champion of TRIO programs. Your testimony mentions the amount 
of time that TRIO students work while attending college, and 
you all had a dialog with some of my colleagues about trying to 
maybe get more grants in the freshman and sophomore year, and 
then maybe looking at how we can help those students in their 
junior and senior year with loans and jobs. It is my opinion 
from my own experience that that idea is going to help a lot of 
students, especially minority students who are accustomed to 
working. Many are first-generation college students, and we 
knew what it meant to have to work to get the college 
education. So if we get the grants in the first and second 
year, do you agree with me that those students would go ahead 
and continue their college education third and fourth if we 
helped them get a job and some loans? Do you think that that 
strategy that is being discussed this morning is one to follow 
and progress in this discussion?
    Dr. Mitchem. I appreciate you raising this concern, Mr. 
Hinojosa. Again, I feel if indeed we can get more money into 
grant aid in the first 2 years, it will be critically important 
to students, as I said before. When we go into the third and 
fourth year, as I suggested, it might be problematic. I think 
there are some risks in the proposal. One that required a 
reduction in grant in the third or fourth year, as I said, 
could be problematic. I think many students, if they were 
indeed successful in the first 2 years, would find some ways to 
make it.
    Once upon a time, way back in Colorado and circumstances 
that you and I are both familiar with, people did. Whether the 
pressures in lives are such now that they still cannot, I am 
not so sure. So thus, I am saying if we adopt that strategy, I 
think we have to be careful, cautious and try to provide some 
safety nets.
    Mr. Hinojosa. Thank you.
    My next question is to Dr. Richard Fonte from Texas. You 
mentioned remediation of students at community colleges. It is 
my opinion that both State legislators and Federal legislators 
have a mind-set that putting money into programs where you have 
low-income students who require the remediation is a mistake, 
and we don't see the amount necessary to help them transition 
from needing remediation to those who will just continue on 
with their college education. And I am not pleased about that 
because I have worked at the State and I worked at the Federal 
Government, and I don't know how to change that mind-set, but 
that is a mistake. It is a myth that poor kids cannot learn. 
When given the tools, when given the professors' teaching in 
their major, when given what the children of the affluent 
families are getting, we see that all children can learn.
    So tell me what your ideas are on how we can--what Congress 
should do about this problem.
    Dr. Fonte. Well, as mentioned in the written testimony or 
comment of ``there is no one to waste'' that Dr. Robert McCable 
said, I think what we have found is that is clearly the case in 
Texas. We believe that we need to make sure that the college 
growing rate and completion rate is maintained or actually 
increased at the level that it is right now. Otherwise, there 
are dire economic consequences to the State. So we do believe 
that if that requires for those students who enter college 
without the exact levels to be totally successful that we need 
to work on what we call developmental education. And there are 
lots of evidence that shows students go through developmental 
education, they do very well. As a matter of fact, we have 
information at our own institution that show they do 
outstanding once they move on to the college-level courses.
    Obviously we would all desire that the K-12 completers have 
all the tools they need to be successful in college. And, we do 
need to put an emphasis on that, and that is obviously why in 
Texas we suggest that people take the recommended high school 
curriculum. We believe that is the case for taking whatever 
course they want to take at Austin Community College; whether 
or not they complete a 1-year certificate or 2-year program in 
the workforce area, or whether or not they are planning to go 
on to a 4-year university, the preparation is the same. We want 
the same preparation, the same level of math, et cetera, 
whether or not you are planning to go.
    I do not know I have the answer how to psychologically 
change people's minds, but I suppose the way to say it is that 
the evidence is clear that you can be successful. If we get 
those folks through college, it will make an economic impact 
that will be beneficial to society. It will not be wasted 
resources. It is resources that if you invest in, will pay off. 
There is evidence of that.
    It is important that we allow students while they are on 
Pell to be taking developmental courses. That is important, 
because there is that tie-in and eventual success.
    Mr. Hinojosa. Thank you, Dr. Fonte. I wish there was more 
time to ask you another question or two, but I yield to the 
Chairman.
    Chairman McKeon. Thank you.
    Mr. Osborne.
    Mr. Osborne. Thanks, Mr. Chairman.
    Traditionally it seems like when people come before this 
Committee or other Committees, whether it be agriculture or 
health care, whatever, the standard request is for more money. 
And, agreeably more money will fix a lot of problems. I would 
like to ask one general question of you. What one thing would 
each of you suggest that we might do that would improve access 
that would not necessarily cost more money? Because you will 
find that those suggestions will probably be greeted with great 
enthusiasm on the parts of many people here in Washington. I do 
not mean to say we will not spend more money, we are against 
the idea, but we are really interested in those kinds of ideas 
because what we are seeing, the Pell Grant has increased 73 
percent in the last 8 years. Cost of education is going up 
roughly 8 percent a year, about the same rate. And at some 
point, with the GDP increasing 2 percent, 3 percent, you hit 
the wall. I mean, you cannot continue to do this. We are 
interested in any ideas that you have, and I have heard one or 
two already, but I would like to see those reiterated. So this 
is an open general question for all of you.
    Mr. Dreyfus. Mr. Osborne, in my testimony I mentioned the 
transfer of credit issue. I believe this issue is much more 
pervasive not only among nationally accredited schools and 
regionally accredited schools, but also among community 
colleges, 4-year schools and in between 4-year universities. It 
is an area that I think has been hidden below the surface for a 
long time. And, it really needs to be taken a hard look at 
because I really think many, many students are denied 
transferring credits that cost them time and money. It is just 
a matter of somehow ensuring the academic freedom of 
institutions, but at the same time letting the institutions 
know that it is incumbent upon them to look at these credits 
and what students have done to give them an opportunity to 
complete the program sooner.
    Mr. Osborne. Of course, in answer to that, I know that many 
institutions will not accept a D from another institution. And 
sometimes they will not accept a C. For instance, many 4-year 
colleges will not accept a C from a community college or junior 
college, whether that is correct or not, and then they want 
something that is commensurate. So there are some problems, and 
I understand. I certainly appreciate your suggestion. Yes, sir.
    Dr. Fonte. Sir, if I could very quickly, the word 
deregulation comes to mind. There are definitely burdensome 
requirements that are put on colleges and universities, and not 
only through the Higher Ed Act, but through Perkins, et cetera, 
which I think need to be looked at.
    In fact, we would like to have some authority where we 
could try to make some provisions of trying to discourage, 
through some campus policies, folks taking loans when they 
really should not. And right now, there are not sufficient 
flexibilities at the campus level to deal with that. I think 
those would be areas where it would not cost you money, but 
would actually probably lead to more efficient use of the 
dollars we have.
    Ms. Milano. I would like to suggest that the FAFSA forms be 
fast-tracked, and certain students whose parents already 
qualify or whose families already qualify for SSI benefits or 
some other benefits be automatically accepted so that they do 
not have to go through all the work involved in filling out a 
FAFSA. I think the government could save a lot of time and 
money and effort in that area.
    Ms. Flack. I would agree. A FAFSA EZ would be a terrific 
benefit.
    I also think fostering more partnerships between the higher 
ed community and the public ed community and leverage those 
people that we have who can show enthusiasm for students and 
can help guide them through the process in a way that sometimes 
they do not receive. We are beginning to see some results from 
those kinds of partnerships. If they can partner with high 
schools, say, and school districts that have historically low 
college-going rates, I think that would be a great deal of help 
to the students.
    Mr. Osborne. My time is up. I see you reaching for the 
gavel, so I am going to beat you to the punch here.
    Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman, and Ms. Milano and 
Ms. Flack. You will be happy to know that there is a bill out 
to do exactly what you suggested. Rahm Emanuel has filed it, 
and I know we have talked to the Chairman here and others, and 
I think you are going to find some support for that and 
hopefully move forward.
    I want to say one thing about Ruben Hinojosa and just say 
how much we appreciate the fact that he is on this Committee 
and consistently raises issues and questions that need to be 
raised about a population that isn't as well served as it 
should be. So I want to thank you, Ruben, for the work that you 
do.
    Also want to take a moment of my time to address Mr. 
Keller. But I want to put on the record, before we go too far 
in our self-congratulations on how we are supposedly spending 
more money on the Pell Grant, I want to bring to our attention 
that what we spend per student on a Pell Grant right now is 
about 42 percent of the cost of a 4-year tuition at a public 
institution. In 1976, a Pell Grant was 84 percent. Until we get 
closer to that percentage, I think we are not really increasing 
and not doing the job we should do.
    I would also note that last year, a per student Pell Grant 
was 4,050. The President this year proposed $4,000, actual 
decrease, and all we are doing here in Congress is freezing it 
at 4,050 if that should go through.
    So I think we are a long way from congratulating ourselves, 
particularly when we are all talking about free trade and a 
global environment and business. We were going to open up the 
free trade, high-end jobs were going to stay in the United 
States, low-end jobs were going to elsewhere, and in 
compensation for this, we were going to make sure more children 
got college and higher education and better job training. We 
were going to pay more for Pell Grants. We were going to do 
more in terms of TRIO, GEAR UP and other programs to get kids 
ready to go, and I think we are not showing a very good record 
in any of those respects.
    And sometimes resources do matter. Sometimes money does 
matter. We have been giving scholarships to Gates and Buffett 
and everybody else here by way of tax cuts at a time when we 
need to be investing in our educational prospects on that. So I 
wanted to put that on the record and hope Mr. Keller will take 
note of that as he moves forward and joins us in trying to do 
some of those things.
    With the little time I have left, I want to note that many 
people seem to indicate that, gee, we are doing all we can do. 
Let me ask our panelists, are States doing all they can do for 
student access to higher education? If not, what more should 
they be doing? And the same question with respect to the 
private community. Anybody want to start?
    Dr. Mitchem. I think the States can do more. Ms. Flack 
really put her finger on the problem to Mr. Carter's questions 
and other questions in terms of the spiraling costs on higher 
education. State subsidies have been reduced. And Congressman 
Van Hollen was correct. We have to put more pressure on the 
States to do more for higher education. The States will say 
they have other priorities, prisons, Medicaid and so on. So 
that seems to me what we need to do is to encourage the States 
to be a more viable partner.
    At the time when the purchasing power of the Pell Grant was 
what you stated earlier, the States were more involved as well, 
so it was more of a shared enterprise, and that is one of the 
things I said in my testimony. And this Committee and Mr. 
McKeon and Mr. Kildee are a bully pulpit to drive and encourage 
and urge Americans and policymakers to understand the 
importance of higher education to economic growth and quality 
of life for the future.
    Ms. Flack. I think the States could also look at where the 
leakage is in the pipeline. I mean, where do we lose students? 
We do not lose them when they are 18 years old and they have or 
have not graduated from high school. We need to get back and 
look at where we are losing students, where they are not 
picking up the courses so that then they graduate from high 
school prepared to succeed, and higher education has partnered 
with the public to ensure that there is a seamless educational 
pipeline, if you will.
    Ms. Milano. The State of Ohio through Governor Taft has 
started a college access network with $2 million. It went from 
11 college access programs to over 30, and it will go to 42, 
and it has raised much more than that $2 million across the 
State to provide college access in communities and to help 
communities provide scholarships to their students. So it was a 
very easy program to manage and would be easily replicable 
throughout the country.
    Dr. Fonte. Very quickly, incentives to encourage State 
financial aid programs that focus on the most needy or first-
generation students, it goes back to some old ideas that have 
been in old authorizations in the past, and I think that idea 
of incentivizing States for State financial aid programs is 
important, especially since it seems right now that the 
direction of some of the State programs is actually not toward 
the needy. We need to focus some attention on that.
    Chairman McKeon. The gentleman's time has expired.
    Mr. Ryan.
    Mr. Ryan. Thank you, Mr. Chairman. I will be brief and 
welcome Ms. Milano from the great State of Ohio. Good to have 
you.
    One question I did have for you in particular. I know you 
are doing work with the high school access and doing some work 
in the middle schools. How do we go about getting parents to 
think at a young age when they have children to begin to do 
their own cost savings? And I know I missed the beginning of 
the hearing, but if you haven't answered this question already, 
if you would indulge me for a minute.
    Ms. Milano. Our programs have recently started spending a 
lot more of their time and energy with younger students and 
engaging parents in the whole process, making sure parents 
understand that their students have to take the right courses 
in high school if they are going to go ahead and go on to 
college. This is so much more important now than it ever has 
been because of the dearth of guidance counselors. There is not 
anybody to help students and parents make these decisions 
anymore. We put some resources through the GEAR UP program also 
and working to bring parents into the schools and get them more 
engaged.
    Mr. Ryan. Thank you.
    I don't know who may have the answer for this, but when I 
was in the State legislature in Ohio, we had numerous studies 
that were saying for every dollar that Ohio put into higher 
education, we received a $1.84 to $2 back in State tax revenue. 
And if we had the number of bachelor degrees that-- with the 
national average, we would have an extra $2 billion in the 
State kitty to invest in other programs. Do we have any Federal 
numbers, the amount of money that we invest from the Federal 
Government that would show us some kind of return so when we 
are out talking about the difference between tax cuts or 
investments in education, we have some hard statistics to say 
we are getting a great return on this money? And if not, maybe 
we should do one.
    Ms. Flack. We have not done a specific study in Texas. To 
answer your question, I do not have Federal numbers. But as I 
cited earlier, what we do know the cost to the State would 
likely be for an uneducated workforce is that we think the 
income loss to Texas would be about $60 billion a year in 2040 
if we do not improve our participation and success rates.
    Mr. Ryan. Sixty billion a year?
    Ms. Flack. Yes.
    Mr. Ryan. I would like to associate myself with Mr. 
Tierney's remarks as well. We have hard decisions to make here, 
but it is really an issue of priorities, and I fall down on the 
side of taking the money and making sure we invest it to 
provide access for our kids so they can help grow our economy 
and start new businesses and hire people here in America. And I 
think these are crucial investments we can make because they 
are ultimately going to solve the challenges we have with 
population, with energy, with health care, all these challenges 
that we face which can be addressed by making the investments 
in education and getting people ready to solve these problems. 
So this is the best investment.
    Thank you very much for your time. And, Ms. Milano, thank 
you for your help.
    Chairman McKeon. The gentleman's time has expired.
    Mr. Payne.
    Mr. Payne. I, too, would like to commend the Chairman for 
assembling such an outstanding panel. Although I didn't hear 
testimony, I read it all while my colleagues were asking the 
questions, so I know what each of you said. But I would like to 
also say it is great to see Dr. Mitchem here, who has done such 
an outstanding job with the Council for Opportunity and 
Education for many, many decades and for the continued 
importance that you mean to low-income students around the 
country.
    Let me also associate myself with the remarks of Mr. 
Tierney, who is gone, and where we talk about patting ourselves 
on the back. I know Mr. Keller did mention it was 7.6 billion 3 
years ago, and it is now 12.3 billion, and that is a great 
increase. That is maybe a 40 or 50 percent increase. However--
and we have been focusing on the increase in costs in education 
in saying that there has been a tremendous increase. However, I 
don't think that the increase is any more than in any other of 
the critical areas.
    If you take housing, for example, right here in the 
District of Columbia, you could probably double the value of 
your property in the last 2 years, at least 30 or 40 percent 
up. If you take a look at health care, it is unbelievable. So I 
don't know how we can look at education in a vacuum and say 
education is going up, and we need to talk about price controls 
and need to look at ways--and it would be good to figure out a 
way that we could reduce the growth in the cost of education. 
However, we do know that educators were poorly paid for 
decades, especially elementary and secondary schools when it 
was primarily women because there were no other opportunities 
for women, so you had the brightest and the best women 
teaching, and salaries were low. And same thing with health 
care, nursing and so forth, where we had outstanding people 
because women had limited opportunities.
    Well, now you have more opportunities for women and 
minorities, and so things are opening up. So we can't do things 
on the cheap like we used to be able to do. We are still not, 
in my opinion, paying educators as well as we ought to, 
although there has been a tremendous improvement in education. 
I put some amendments forth several weeks ago where we are 
trying to get a higher quality of education, starts at that 
elementary and preschool level to try to get loan forgiveness 
for Title I schools where you had over 65 percent of the 
student population Title I students. We did get some relief for 
math and science and special ed. But if we are going to lose 
quality teachers the first chance they get to leave that school 
and take an opening at a school where class sizes are smaller, 
the school is not as old, the children are prepared by their 
parents before they come in, we are going to have the continued 
problem of people leaving the elementary and secondary and 
preschool and making it more difficult so programs like Upward 
Bound will always be necessary.
    I just--and I only want to bring into defense, this 12 
billion that we are spending this year for Pell Grants, we 
will--we spend that in a week and a half in defense. So in less 
than 2 weeks, you spent the whole amount that we put into the 
Pell Grants. We need to have a strong defense, but I think we 
need to keep things in perspective, and I don't think there is 
anything more important in this Nation than education. The 
future of our grandchildren is going to be dependent on 
education that they get because the whole world is tooling up 
and becoming more efficient, and unless we are ahead of the 
curve, that is why we have been for so long.
    So I also see the problems in our States. They are just 
strapped for funds, and they are going to continue to put a cap 
on what they give for education for the near future. And those 
States like New Jersey, which has many State schools, the 
increase--even our Rutgers University is quasi-State, and that 
means those courses of higher education in New Jersey is going 
to continue to spiral up, which makes it extremely difficult.
    Let me ask you, Dr. Mitchem, people have a view that Upward 
Bound is focused only in certain areas. Could you give me a 
picture of the Upward Bound population and its constituency in 
general?
    Dr. Mitchem. Surely, if you look at TRIO as a whole, 36 
percent of the population is white, 34 percent is African 
American, 20 percent is Latino, 5 percent is Native American, 5 
percent is Asian, about 16,000 individuals are disabled, and 
about 14,000 individuals are people who had been in the 
military, veterans. TRIO programs, including Upward Bound, are 
in all 50 States and everywhere the American flag flies. So it 
is clearly and truly a triracial, multiethnic American program 
that is meeting the interest of all low-income people in both 
rural and urban areas.
    Mr. Payne. I wanted to make that clear because some of my 
colleagues had that impression.
    Chairman McKeon. Thank you. The gentleman's time has 
expired.
    Mr. Burns.
    Mr. Burns. Thank you, Mr. Chairman. I appreciate the input 
that you provided.
    I first want to apologize for having to step out, so my 
question may be redundant. I would like to, first of all, thank 
Mr. Kildee. I think maybe a partnership where student loan 
forgiveness is an option is a good idea we ought to 
investigate. Anytime we have an opportunity to relieve the debt 
burden on our graduates, I think that is something we need to 
pursue.
    I also want to talk a little bit about the Pell Grant 
front-loading. I spent 20 years in the academic world, and I 
know the challenge of retention, recruitment. And then once you 
get them in that front door the first year, how do you get them 
back the second year? What downside do we have to front-loading 
Pell Grants? Anyone want to tackle that? Who would be opposed 
to that in the education community? Hearing no objections, does 
that mean there is unanimous support? We will move on. That is 
good.
    The second thing is the 50 percent rule on distance 
education, certainly Web-based education, distance education, 
which I was involved in for a number of years, is becoming a 
much more effective technique for delivery, and it is one 
option at least to encourage at least some cost containment and 
indeed maintain and enhance quality. Can you help me with any 
specific recommendations on that particular part of the Higher 
Education Act?
    Mr. Dreyfus. Well, Mr. Burns, CCA's proposal has been to 
maintain quality and allow only approved accrediting bodies to 
review these distance education programs. I do believe that 
there will be some savings as far as the infrastructure goes, 
buildings, et cetera, for schools. However, I am not sure that 
generally a distance education program is going to be less 
costly to deliver if it is a quality program. You still have to 
have that student/teacher interaction and just cannot have 1 
professor for 4,000 students. I mean, the number of students is 
very important. In fact, a student cannot hide in the back of 
the classroom like they can in a normal classroom. It is very 
important to maintain the quality.
    I think if the private sector is going to go into distance 
education in a big way, certainly the 50 percent rule is one 
that may hinder some of that investment. But, I do believe we 
still have to maintain a differential between what 
correspondence courses are and telecommunications courses.
    Mr. Burns. I agree.
    Do you see 100 percent distance education as an acceptable 
model, or do you see some balance?
    Mr. Dreyfus. There are some instances where schools have 
been 100 percent distance education, and it depends on the 
case-by-case basis as to the quality of what they deliver. I 
believe that in the future you will see more and more that may 
be 100 percent, but it has to maintain that quality.
    Mr. Burns. Dr. Mitchem, I appreciate your testimony, and I 
especially appreciate the specific goals that you suggest. 
Oftentimes we do not see quite that level of specificity. I 
think that is good.
    Now the question is attainment, that might be a challenge, 
and supporting that. How do you respond to those who say there 
are very few entities receiving or even willing to apply for 
TRIO funding? Is that a problem because of prior experience?
    Dr. Mitchem. No, sir, it is not. In fact, we looked at that 
issue very carefully and discovered that the opportunity to get 
a TRIO grant is better than it is for a Part A grant and Title 
3 or any other Federal discretionary program. In fact, about 38 
percent, 38 percent on average in the last 3 years, that is 
this century, of programs have gotten new programs. So the TRIO 
program is a very wide open program. But at the same time, it 
is a program that is committed to sustaining services so you 
can buildup real relationships in communities and provide 
services where needs still exist.
    Mr. Burns. Do you have any recommendations for changes? Are 
there any changes that might be necessary in TRIO?
    Dr. Mitchem. Not in terms of the prior experience area, 
sir. I think it served the programs of American colleges quite 
well for over 20 years, and I want to leave that as it is.
    Mr. Burns. Last area is in transfer credits. There was 
discussion about a disincentive to move from institution to 
institution, and you are 100 percent right. Certainly a large 
percentage of our students now attend multiple institutions, 
and there is a barrier to moving from one institution to 
another. How do we resolve that transfer issue, or must we rely 
on the accrediting bodies and the independence and the academic 
freedom that is there in the individual institution?
    Chairman McKeon. Gentleman's time has expired and would 
like for you to answer that in writing if you could.
    We have one more Member that has not had a chance to ask 
questions. We now are being called to a vote. We will hear from 
Mr. Bishop.
    Mr. Bishop. Thank you, Mr. Chairman. Once again, thank you 
for allowing me to participate in this hearing. I have several 
questions, but let me ask one I think that might be the most 
important.
    Several of you have suggested significant increases in Pell 
Grant funding, something I certainly concur with. My question 
is do you believe--how would you weigh the merits of increasing 
the funding such that the maximum award per student would go up 
as opposed to increasing the eligible population who will 
qualify for the reward? I think right now a student who expects 
family contribution of $4,000 or less is eligible, and anybody 
over $4,000 is ineligible. How would you weigh the merits of 
increasing the maximum reward versus increasing the eligible 
population, let us say, to students who can contribute to 6,000 
or less or 8,000 or less?
    Mr. Dreyfus. I personally think the population that is 
currently being served with Pell Grants still needs more 
support. And, if you even that out across more participants, it 
is not going to help some of the most needy students, which is 
what we are talking about, and get through that first and 
second year.
    Dr. Fonte. Currently, Pell goes very much to the most needy 
students, so I think that is important. And, I think if you did 
increase the number, that would have the impact--I think, of 
the objectives that you are outlining there as a possibility. I 
think the emphasis is to increase the level. I think you might 
actually then be able to attract even more people in a broader 
range.
    Mr. Bishop. Increase the maximum level.
    Dr. Fonte. Right.
    Mr. Bishop. I guess the reason I ask the question, I was a 
financial aid director for 7 years, and I always found the most 
difficult population to assist was the population that was just 
beyond Pell Grant eligibility. And that leads me to my second 
question, which is how would you weigh the relative merits of 
increasing Pell Grant funding versus increasing campus-based 
funding?
    Dr. Fonte. From a community college point of view, given 
the historical distribution, there is not any question of the 
importance of the Pell Grant, although we surely do think the 
campus-based programs need to be addressed. I would put an 
emphasis on SCOG, which is aimed at helping the most needy. But 
without any question there is not any question in terms of the 
priorities.
    Dr. Mitchem. I would agree with Dr. Fonte completely.
    Mr. Bishop. Thank you, Mr. Chairman.
    Chairman McKeon. Thank you.
    We have been called to a vote. We have a couple of votes, 
so we will not be coming back. Mr. Hinojosa did have a final 
question. If he were able to submit that to you in writing, 
would you be able to answer that? Would that be sufficient?
    And just finally, both Mr. Keller and Mr. Tierney are gone. 
What they both said was correct. It is just how you look at it: 
Is the glass full or half empty? We have increased Pell Grants 
this year, 885 million. While the top level is the same, what 
it does is it does expand over more students, which we look at 
expanding accessibility, giving more students opportunity is 
why we do that.
    I want to thank you for being here today. I think you have 
been excellent witnesses. It is very helpful as we move forward 
in the reauthorization, and I would encourage you to stay 
involved in the process and be there to help us as we move 
forward. And with that having been said--.
    Mr. Hinojosa. Would the Chairman yield? I have some 
additional questions in addition to the one that you mentioned. 
May I submit those for the panelists to answer in writing?
    Chairman McKeon. Are you in agreement?
    No objection, so ordered.
    This Subcommittee stands adjourned.
    [Whereupon, at 11:55 a.m., the Subcommittee was adjourned.]
    [Additional material submitted for the record follows:]

Response of Dr. Richard Fonte, President, Austin Community College, to 
                   Questions Submitted for the Record

                                           August 18, 2003

The Honorable Ruben Hinojosa
2463 Rayburn House Office Building
Washington, DC 20515

    Dear Representative Hinojosa:
    On behalf of the American Association of Community Colleges (AACC), 
I am pleased to provide the following responses to the questions you 
submitted for the record of the July 14, 2003 hearing of the 
Subcommittee on 21st Century Competitiveness. As you will recall, the 
hearing focused on providing access to higher education.
    1) As is broadly understood, there are many barriers to full 
Hispanic participation in higher education. Some of the barriers are 
simply linguistic. Cultural reasons, and perhaps a widespread feeling 
that ``higher education is not for me,'' also play a role. Many would-
be Hispanic college students, particularly males, have extremely close 
ties to their families that lead them to eschew college to work to help 
support those families. A lack of adequate academic preparation and, of 
course, disproportionately high high-school drop-out rates are another 
reason for low college participation rates. Also, the continued under-
funding of student financial aid programs creates an additional set of 
barriers for Hispanic students.
    Given this, any Federal effort to draw more Hispanic students into 
higher education must be multi-faceted. Most of components that are 
needed to lower the hurdles for Hispanic students are currently in 
place, and primarily need greater funding. (However, please see my 
response to your question 5.) This is certainly the case with the TRIO 
program.
    3) The ``Closing the Gap'' initiative is of extraordinary 
importance to the economic and social well-being of Texas and, indeed, 
the nation. There is no easy response or quick solution to the budget 
problems that have are currently plaguing Texas and which have 
contributed to the substantial under-funding of the initiative. 
However, we hope that policymakers will soon grasp the overwhelming 
long-term benefit in ensuring that Texas's Hispanic population is drawn 
into full participation in college. The consequences of not doing so 
will be severe.
    4) AACC supports legislation such as S. 1291 and H.R. 1918, 
introduced in the last Congress, that would have amended the Illegal 
Immigration Reform and Immigrant Responsibility Act of 1996 to permit 
States to determine state residency for higher education purposes. The 
bills would also have adjusted the status of certain alien college-
bound students who are long-term U.S. residents. In addition, Congress 
should continue to ensure, at a minimum, that legal immigrants continue 
to have access to federal student financial aid.
    5) Although much progress has been made in enhancing the movement 
of community college students into four-year colleges (and, in some 
cases, two-year institutions), significant barriers remain. 
Difficulties in transferring remain especially acute for students 
wishing to successfully transfer credits to many private colleges as 
well as out-of-state public institutions. AACC and other higher 
education associations support an explicit federal role in facilitating 
transfer between two-and four-year colleges.
    AACC currently supports, with modifications, Rep. Wu's legislation 
(H.R. 1871) that provides funding for partnerships between community 
colleges and other institutions to facilitate transfer. (AACC's 
reservations focus on the bill's provisions that provide student 
financing; we believe that that is most effectively provided through 
Title IV.) Rep. Wu's legislation does not focus on particular 
curricular areas of programs of study, although it does provide general 
support for curriculum. H.R. 1871 could certainly be modified to 
concentrate on occupational programs of particular need, such as 
nursing, teaching, law enforcement, and information technology.
    On a related subject--although the problem of transfer-of-credit is 
a significant one in many cases, many of the solutions that have been 
proposed would create new and substantial problems for students and 
institutions. The evaluation of credit should remain an institutional 
prerogative. Therefore, we urge Congress to move with caution in this 
area.
    Thank you for your ongoing interest in these and other issues that 
are so critical to our nation. I am pleased to provide any additional 
information that might be of help to you as the HEA reauthorization 
process proceeds.

                                           Sincerely,

                                           Richard Fonte
                                           President and CEO
                                           Austin Community College
                                 ______
                                 

  Response of Christina Milano, Executive Director, National College 
          Access Network to Questions Submitted for the Record

                   Questions from Hon. Ruben Hinojosa
    1. What do you think the barriers to access have been and how can 
we assist the Hispanic community in overcoming them?
    Most under-represented students, including those from the Hispanic 
community, our country's newest majority minority, face barriers to 
college access--cultural differences, high guidance counselor to 
student ratios, lack of need-based aid, rising costs of education, and, 
most critical, a lack of information about college admissions, 
financial aid and career path development. Parent involvement and 
information is key, particularly for first-generation and Hispanic 
families. Home visits of college access advisors to family members of 
students who are high school students appear to be particularly 
effective for this population. Information, coupled with guidance and 
financial aid is the key for all underrepresented students.

    2. Directed to Dr. Mitchem re: TRIO application procedures

    3. The Closing the Gap Initiative began with great optimism and 
inspired hope that Texas was truly committed to closing the gaps. 
However, our state's budget crisis threatens to make the initiative 
little more than rhetoric. How can we help and encourage states to 
fulfill the promises made in initiatives like this one?
    College access should be a partnership among the federal 
government, state governments, institutions of higher education and 
students and families. The federal role in providing student financial 
aid such as Pell Grants, Work Study, and Federal Family Educational 
Loans is critical. You are correct that many states are facing budget 
crises that lead to cuts in funding for higher education and for any 
state-based student financial aid programs. However, some states are 
making higher education a priority. For example, realizing the 
importance of a college-educated workforce and its many benefits to the 
state, Ohio supports the Ohio College Access Network (www.ohiocan.org), 
which is building local college access programs to bring information 
and scholarship dollars to students across the state. The federal 
government should consider initiating incentives for the states to help 
them work with students on programs such as Closing the Gap and the 
Ohio College Access Network.

    4. The doors of opportunity remain closed for one group of young 
people in America. Young people, graduating, often with honors, from 
our high schools, are being denied access to college because they were 
brought here as children by their parents and do not have 
documentation. There has been bipartisan legislation introduced to 
assist this group of young people. What do you recommend that we do to 
ensure that all of our high school graduates have the ability to attend 
college if they so desire?
    This is a difficult issue. We at NCAN are committed to working with 
our programs to help all students access higher education through a 
combination of advice, guidance, and financial assistance. In the long 
term, all of us benefit if undocumented students receive some form of 
postsecondary education. Many of our programs do offer financial 
assistance to undocumented students, while others require a social 
security number or alien registration. It is important, however, that 
all students, regardless of their citizenship, receive the advice and 
attention they need to pursue postsecondary education, the key to a 
brighter future.

    5. Several of our witnesses today have spoken about 2-year 
institutions as gateways to higher education and there has been an 
acknowledgement of barriers to transitioning from 2-year to 4-year 
institutions. It seems to be that we could erase such transitions by 
encouraging 2- and 4-year institutions to collaborate in curriculum 
development, especially in fields where there are workforce shortages. 
I would like to pursue this. What are your thoughts?
    This is a crucial issue. Two-year institutions often present an 
accessible, local, affordable option for post-secondary education. Many 
students who start out at two-year colleges would like to, and intend 
to, transfer to a four-year-college or university. Unfortunately, 
however, when it comes time to transfer, they often lack all of the 
coursework they need, or the courses they have taken are not 
transferable to a four-year school.
    However, I think there is some competition within 2-year schools 
between the ``academic'' side and the ``workforce development'' side. 
Many 2-year institutions receive federal and corporate funding for 
workforce development and tend to guide students into those programs 
rather than into the more liberal arts side of the institution, which 
may prepare students for a transfer to a 4-year school. Four-year 
institutions are not underwriting any costs for the 2-year schools. 
Also, more and more companies are looking at the two-year career 
focused degrees as what it is they need in their work environments and 
are willing to help underwrite these training costs at the 2-year 
institutions.
    There needs to be more, and better, collaboration between these 
institutions. Generally, students attending 2-year schools need more 
and better counseling. More schools should create articulation 
agreements program between two- and four-year schools that enable 
students who are interested in pursuing a certain major or career path 
to work with counselors at both the 2-year and 4-year institutions to 
ensure that they are taking the courses they need to successfully 
transfer and pursue the major of their choice.
                                 ______
                                 

 Response of Dr. Arnold Mitchem, President, Council for Opportunity in 
            Education to Questions Submitted for the Record

                   Questions from Hon. Ruben Hinojosa
    1. What do you think the barriers to access have been and how can 
we assist the Hispanic Community in overcoming them?
    In your initial question you cite data from the TRIO National 
Clearinghouse that reports only 16 percent of students served by TRIO 
programs are Hispanic. Based on that data, you correctly point out that 
the percent served has not changed ``over the years''. Your citation of 
the Clearinghouse reference is accurate, but the Clearinghouse data is 
wrong. I apologize for that and have taken steps to correct that error. 
Let me provide you with the accurate information, which clearly 
indicates that progress is being made with respect to the number of 
Hispanic students being served by TRIO programs.
    During the last reauthorization of the Higher Education Act in 
1998, 16% of students enrolled in TRIO were Hispanic. According to the 
latest data available from the Department of Education, the percentage 
of Hispanics served in TRIO had risen to 19%. This represented nearly 
22,000 additional Hispanic students. And, of course, Hispanics like 
other low-income Americans also benefited in the growth in TRIO 
appropriations since 1994. In 1994, TRIO served 668,000 students; by 
1999 it served 722,000 youth and adults. Of the 54,000 additional 
students that were served, over 10,000 were Hispanic. Thus the total 
growth in Hispanic enrollment in TRIO programs between 1994 and 1999 
(the last year figures are available from the Department of Education) 
was over 32,000 additional Hispanic students.
    We have every reason to believe that Hispanic enrollment in TRIO 
programs has continued to increase since 1999. For example, since 1999 
there have been five TRIO competitions: Student Support Services in 
Fiscal 2001; Educational Opportunity Centers and Talent Search in 
Fiscal 2002; and Upward Bound and McNair in Fiscal 2003. In the Student 
Support Services competition, 34 of 161 new grants awarded (21%) went 
to HSI's; in EOC's, 10 of 55 new grants awarded (18%) went to HSI's; in 
Talent Search 19 of 111 new grants awarded (17%) went to HSI's; in 
McNair, 5 of 27 new grants (19%) went to HSI's and 16 of 81 new Upward 
Bound grants (20%) went to HSI's.
    When one considers that only 10% of colleges and universities are 
HSI's and that 61% of HSI's already host TRIO programs, this is indeed 
a remarkable record. This is especially the case given that nationally, 
fewer than one in three colleges and universities host TRIO programs.
    The Council remains committed to doing everything possible to 
assist colleges and universities, particularly minority-serving 
institutions, in submitting successful TRIO applications. Because of 
our commitment to expanding the number of minority-serving 
institutions, the Council established a partnership with the Hispanic 
Association of Colleges and Universities (HACU), the National 
Association for Equal Opportunity in Higher Education (NAFEO), and the 
American Indian Higher Education Consortium (AIHEC) for the purpose of 
pursuing that goal. Beginning in 2000 the TRIO Minority-Serving 
Institutions Outreach Project, with funding from the Department of 
Education, has conducted seminars for minority-serving institutions on 
enhancing institutional infrastructure to become more effective in 
securing TRIO funding. Since we began those seminars, 86 new TRIO 
programs have been awarded to 68 Hispanic Serving Institutions, 
including new TRIO programs at South Texas Community College, Texas A & 
M University at Kingsville, and the University of Texas-Pan American. 
Altogether, the 15th Congressional District of Texas currently hosts 13 
TRIO programs that serve 4,452 students and receive $4,063,441 in 
Federal TRIO funding. The State of Texas currently hosts 176 TRIO 
programs that serve 54,926 students and receives $51,148,642 in Federal 
TRIO funding. Although we are making progress, we still have a long way 
to go.
    We in the TRIO community are nowhere near where we want to be in 
serving the educational access and support needs of the nation's low-
income, first generation students. As you know, we currently are funded 
to serve less than 10 percent of the eligible population. We appreciate 
your ongoing support in securing increased funding so that we can 
continue to include more deserving students of need within the TRIO 
programs.

    2. Besides, prior experience points, how has TRIO accountability 
evolved to reflect the values and benchmarks in NO Child Left Behind 
Act?
    Congressman Hinojosa, we believe the TRIO community has made great 
strides in assuring accountability over the past six years. For 
example, my Board in conjunction with the Council for the Advancement 
of Standards in Higher Education (CAS) has adopted a set of standards 
for TRIO and Other Educational Opportunity Programs. These standards 
provide institutions a means of assessing the performance of their own 
TRIO programs against nationally accepted criteria. My Board believes 
so strongly in these standards that as recently as May of this year, we 
offered a free teleconference to all colleges and universities 
throughout the country presenting the standards and explaining how they 
could be used.
    More specifically on No Child Left Behind, the TRIO community is 
also moving aggressively to assist young people in meeting new 
standards imposed upon them by that law. You will note, for example, in 
the upcoming conference of the Council for Opportunity in Education, an 
entire strand is devoted to this topic considering such issues as 
``Effective Approaches to Assisting Students Pass State Mandated 
Tests'' and ``Linking Pre-college Outreach Programs with School Reform 
Efforts.
    The Department of Education, too, is moving to increase 
accountability for outcomes in the TRIO programs and I am sure the 
Department would be pleased to share with you information regarding 
their efforts in this area.
    With respect to Prior Experience, let me comment on a few 
misconceptions. It is said that the concept of Prior Experience is 
unfair to colleges and agencies that aren't sponsoring a particular 
TRIO Program. Is it unfair? Prior Experience does give existing TRIO 
programs an advantage over new applicants in competitions, but there 
are good reasons that Congress decided to provide this advantage:
    <bullet> LDuring the 1980 Reauthorization of the Higher Education 
Act, Congress acknowledged that TRIO Programs were not one-time 
``demonstration programs''. TRIO, like Pell grants, are Student 
Assistance Programs funded under Title IV of the Higher Education Act. 
Congress explained its view by arguing for a sustained federal role in 
providing access and support services to eligible students. It 
emphasized the importance of encouraging student and community reliance 
on continuous program services.
    <bullet> LPrior Experience holds colleges and universities 
accountable for how they treat low-income and disabled students. Prior 
experience points encourage colleges and universities to meet the 
student outcome objectives they set for college entrance, persistence, 
academic achievement, graduation, and numbers of students served.
    <bullet> LIt's plain common sense. Experience counts. Employers 
look to the experience of their applicants when deciding whom to hire. 
Shouldn't the Federal Government (which can only reach one out of every 
13 young people and adults eligible for TRIO) count experience in 
implementing these important federal programs?
    Prior Experience isn't an entitlement. In fact, in almost every 
TRIO competition, colleges and community agencies lose funding--
something that wouldn't happen in an entitlement program. It is an 
accountability measure that results in more effective and efficient 
programs and rewards colleges and agencies only if they demonstrate 
that they have met certain objective criteria and achieved the 
measurable outcomes they set in their grant application (as amended by 
negotiation with Department of Education staff).
    Another misconception is that Prior Experience keeps out 
``institutions'' and that many colleges and agencies that want to serve 
low-income, first-generation, and disabled students can't get TRIO 
funding because of the Prior Experience provision. This just isn't 
true. New applicants for TRIO funds have a better chance of being 
funded than the same institution would have in applying for other 
Department of Education administered programs. For example, on average 
over the last three years of grant competitions, a ``new applicant'' 
has had a 38% chance of receiving a TRIO grant. That same college's 
chance of being funded as a new applicant would only be 19% in either 
the Title III, Part A Program or GEAR-UP.
    People say that the Prior Experience provision keeps minority-
serving institutions from hosting TRIO programs and thus prevents needy 
minority students from receiving TRIO services. This is not true. 
Consider the following:
    <bullet> LFirst, TRIO, similar to student aid programs, is designed 
to assist students, not institutions.
    <bullet> LTRIO is effectively serving racial/ethnic minority 
students. 36% of TRIO students are African-American; 19% are Hispanic; 
4% are Native American; 4% are Asian. A full 63% of TRIO students are 
from racial/ethnic minority backgrounds.
    <bullet> LPrior Experience is not preventing Minority-Serving 
Institutions from receiving TRIO grants; in fact, Prior Experience 
works to assure continuity of services at these important institutions. 
Nationally, less than one-third of colleges and universities host a 
TRIO program, but 61% of Hispanic Serving Institutions, 77% of 
Predominantly-Black Institutions; and 69% of Tribal Colleges sponsor at 
least one TRIO program.

    4. What do you recommend that we do to ensure that all of our high 
school graduates have the ability to attend college if they so desire?
    I share your concern regarding the provision of opportunity to 
undocumented students, especially those who are graduates of U.S. high 
schools. Your State has certainly taken the lead in extending 
opportunity to such students by allowing them to enroll in publicly 
supported colleges as resident students. However, although I am not 
completely knowledgeable about this subject, it is my understanding 
that certain provisions of the 1996 Immigration Reform Act stand as 
obstacles for States. Many in the TRIO community believe that Senate 
Bill 1291 which was introduced in the last Congress by Senator Hatch 
provides an appropriate framework to address these concerns 
particularly because it allows states to determine State residency for 
higher education purposes. I am not aware, however, of any parallel 
legislation being considered in the House.
    Many TRIO Program administrators are faced with the challenge of 
how to help children of undocumented immigrants who want to obtain a 
postsecondary education but who face certain education barriers because 
they cannot obtain legal residency. That's why the Council supports the 
DREAM Act and was one of many national organizations that signed a 
letter to Senators Hatch and Durbin and to Representatives Cannon, 
Berman, and Roybal-Allard in support for the DREAM Act.

    5. It seems we could ease such transitions by encouraging 2- to 4-
year institutions to collaborate in curriculum development, especially 
in fields where there are workforce shortages. I would like to pursue 
this. What are your thoughts?
    As I've mentioned in my testimony, the ability of low-income, 
first-generation students to obtain a baccalaureate degree is critical. 
However, you are correct that there are a number of barriers that exist 
for such students who want to transition from a 2-year to a 4-year 
school. TRIO's Student Support Services (SSS) Program has had positive 
impacts on helping low-income students transition from a 2-year to a 4-
year school. SSS programs provide a range of activities designed to 
help those students secure admission and financial assistance for 
enrollment in a 4-year school. SSS programs also make sure that 
students are aware of a SSS program at the 4-year school so that 
students can continue receiving the vital services SSS programs provide 
in helping students graduate from college.
    I think providing incentives for 2-year and 4-year schools to 
collaborate in curriculum development would be helpful in easing the 
transition. However, I think a bigger problem is just students knowing 
what courses they need to have taken so that they can transition to a 
4-year school, and then making sure that they have taken those right 
courses. SSS programs provide that kind of counseling and knowledge 
about course selection.
                                 ______
                                 

  Response of Mark Dreyfus, President, ECPI College of Technology, to 
                   Questions Submitted for the Record

                                           July 31, 2003

The Honorable Ruben Hinojosa
United States House of Representatives
Washington, DC 20515

Dear Representative Hinojosa:

    Thank you for the opportunity to respond to your questions from the 
July 15, 2003, hearing on ``Expanding Access to College in America: How 
the Higher Education Act Can Put College Within Reach.'' I will limit 
my response to your question on reducing the barriers to transitioning 
from two-year to four-year institutions (Question5), since only a very 
limited number of for-profit institutions participate in the TRIO and 
GEAR UP programs. My response to this question follows below.
        I fully support efforts to encourage collaboration in 
        curriculum development between institutions to remove transfer 
        of credit barriers. However, I firmly believe that such efforts 
        alone cannot effectively address this problem. Currently, four-
        year institutions have little incentive to accept credits for 
        transfer from two-year institutions, whether they are community 
        colleges or career colleges. In fact, it is in an institution's 
        financial self-interest to deny the transfer of credit, since 
        it may lose a significant amount of revenue by accepting 
        credits earned at another institution.
        I am also concerned that most regionally accredited colleges 
        and universities have an informal policy that limits the 
        credits considered for transfer to those earned at other 
        regionally accredited institutions. This means credits earned 
        at nationally accredited colleges are often not considered for 
        transfer to these institutions, even if the school has the same 
        curricula, faculty qualifications, and resources as a 
        regionally accredited institution. Thus, choosing to attend a 
        nationally accredited institution has become an obstacle for 
        students who may later wish to transfer credits to a regionally 
        accredited institution.
    In my written testimony I made the following recommendations to the 
Committee in an attempt to address transfer of credit barriers.
        <bullet> LFirst, accrediting agencies should be required to 
        adopt and enforce standards or policies that require 
        institutions to presume the academic quality of credits earned 
        at an institution that is accredited by an agency recognized by 
        the Secretary of Education. This would not require institutions 
        to accept all proffered credits; institutions would still be 
        free to assess the comparability of the course as well as the 
        student's level of mastery.
        <bullet> LAdditionally, a new requirement should be added to 
        the program participation agreement signed by institutions 
        participating in Title IV student aid programs that would 
        require institutions to presume the academic quality of credits 
        earned at an institution that is accredited by an agency 
        recognized by the Secretary of Education. As noted above, 
        institutions should be left the discretion to decide credit 
        transfers on a case-by-case basis on issues such as course 
        content and student mastery.
        Finally, States can play a role to foster the transfer and 
        portability of credits within their borders. Florida, for 
        example, has instituted a common course numbering system that 
        allows for courses to be easily evaluated.
    I look forward to working with you and your colleagues on the 
Education and the Workforce Committee to address transfer of credit 
barriers and other issues during the reauthorization of the Higher 
Education Act. Please do not hesitate to contact me at (757) 671-7171 
with any questions.

                                           Sincerely,

                                           Mark Dreyfus
                                           President,
                                           ECPI College of Technology
                                           Chairman,
                                           Career College Association
                                 ______
                                 

 Statement of Hector Garza, President, National Council for Community 
                       and Education Partnerships

    Mr. Chairman and members of the Subcommittee, let me start by 
expressing our appreciation for the opportunity to submit this written 
testimony for the record on expanding access to college for needy 
students.
    On behalf of the over 1.2 million students, their schools and 
districts, higher education and business partners, community and faith-
based organizations and the 47 states that are involved with GEAR UP--
it is indeed a privilege for me to represent them today.
    Because NCCEP has signed on as a supporter to other reauthorization 
proposals submitted by sister associations and the higher education 
community as a collective, my remarks will focus primarily on the 
question related to promoting access and educational opportunities for 
low-income and underserved students.
    Specifically, I want to focus exclusively on ways to expand and 
improve an already successful program known as GEAR UP.
    Our extensive involvement with GEAR UP practitioners and their 
partners places us in a unique position to represent their interests 
and articulate some of the changes and improvements to the GEAR UP 
program that we, as a community, believe are necessary.
    With respect to the federal college access programs, we believe 
that GEAR UP and TRIO should be maintained as separate complementary 
programs and expanded to collectively serve larger number of students, 
schools, and communities.
    Each of these important college access programs offers unique 
approaches and services to low-income and first-generation college 
students.
    To consolidate the programs would be a mistake.
    Of the two, GEAR UP is the younger and more contemporary using 
research-driven practices that focus on what matters most--student 
achievement and academic success.
    GEAR UP partnerships already are documenting impressive changes in 
students' achievement levels as well as changes in educational 
practices that will serve as lasting reforms to K-16 systems.
    The central question, then, is how can we make an excellent college 
access program even better?
    We believe that the programmatic thrust and work of GEAR UP 
partnerships are central to helping schools, districts, and states 
efficiently implement the No Child Left Behind Act.
    In GEAR UP, the administration has a model program that can help 
ensure that no child is left behind.
    GEAR UP is the mechanism to ensure a smooth education transition 
for all children.
    This model, encompassing local strategies and community engagement 
with a coordinated state presence, is precisely the type of federal 
program that should be improved and expanded to serve all states and 
more communities.
Recommendations:
    1. LWe encourage Congress to increase the GEAR UP funding period 
from five to six years. Support the President's fiscal year 2004 
proposal and add an additional year to the program. Existing GEAR UP 
grantees could, then, ensure their students access to postsecondary 
education (funding 7th--12th grades).
    2. LWe encourage Congress to increase the authorization level of 
GEAR UP to $500 million. We believe Congress can play a leadership role 
in expanding GEAR UP to serve students--in all 50 states--by increasing 
the program's authorization level and provide the Department with 
resources to open up new application processes.
    3. LWe encourage Congress to clarify the legislative language that 
would allow both state and partnership grantees to apply for second 
phase of the grant. Addressing the fact that there is NO ``wait out'' 
period is important as programs desire to reapply for grants to sustain 
early efforts to promote student achievement and system(s) change. 
Grant renewal, however, will be based on ``successful performance'' and 
not ``prior experience''.
       LSeveral studies have concluded that effective education reforms 
not only takes time to develop and implement but also requires a 
sustained effort continually improving and adjusting the education 
strategies implemented using a top-down and bottom-up grassroots 
approach.
       LThese comprehensive and systemic reform models being 
implemented through GEAR UP are precisely the locally effective 
practices the Congress needs to support.
    4. LWe encourage Congress to exclude partnership grants from 
proposing a scholarship component. The scholarship component should be 
left exclusively to state grantees. Local communities rarely have the 
capacity to fundraise and manage complex scholarship programs that 
involve out years and forward funding and may not have the requisite 
experience to ensure that a student is appropriately ``packaged'' as 
required by law. Providing scholarships should remain a role for state 
grantees, though waivers for states with appropriate need-based student 
aid programs should also be made available.
    5. LWe encourage Congress to appropriate supplemental resources to 
improve the capacity of GEAR UP grantees to conduct project-level 
evaluation. While project-level evaluations are the cornerstone for 
measuring program impact, we are concerned that GEAR UP partnerships 
have not been provided the necessary technical assistance by the 
Department's evaluation staff or their evaluation contractor.
       LAs with many other education reform initiatives, at least three 
years is necessary to get organized and to begin to function 
effectively as an education partnership.
       LGEAR UP partnership teams are just now ready to more 
effectively use local and state student achievement data to refine 
their programs, policies, and practices.
       LAs the technical assistance provider for GEAR UP partnerships, 
NCCEP stands ready to work with the Department to help build the 
organizational and individual capacities of GEAR UP partnerships to 
conduct better project-level evaluations and measure program impact.
       LWe believe that our proven track record and organizational 
capacity in the area of K-16 partnership assessments will help GEAR UP 
grantees to conduct better evaluations and to use their data and 
analyses to improve their programs.
       LMoreover, the GEAR UP community has repeatedly expressed 
concern about what is perceived as disconnect between the data reported 
through the Annual Performance Review (APR) and the unique design of 
the local GEAR UP program. I will add, however, that we are working 
closely with the Department to revise and enhance the report for the 
future.
       LMany program directors see little relevance between the data 
collected through APR and their specific program interventions. Our 
concern is that a flawed methodology and data collection system will 
fail to produce the type of evaluation that will be necessary to 
demonstrate the programs' real impact.
       LIn addition, program evaluations should have value locally and 
should be designed to guide program directors in making program 
adjustments and mid-course corrections.
       LThus, we reemphasize that grantees use the NCCEP-sponsored GEAR 
UP conferences and capacity-building workshops as a way to gain 
valuable insight from the field and to refine the project-level 
evaluation strategy as a way to improve local GEAR UP programs.
    6. LWe encourage Congress to require the Evaluation Contractor to 
form a learning community made up of GEAR UP program and NCCEP 
evaluators, the Department of Education's evaluation and GEAR UP 
program staff, and academic researchers who study college access 
programs and K-16 partnerships. We continue to be concerned bout the 
way in which the Evaluation Contractor--Westat, in this case--has 
organized itself to conduct the GEAR UP evaluation.
       LThis contractor has failed to demonstrate a willingness to 
immerse itself in the trenches of partnership work as a way to 
understand the inner workings of the program as well as left the GEAR 
UP community suspicious of the Contractor's role and function.
       LRepeated attempts to engage the Contractor in meaningful 
conversations with GEAR UP practitioners have proven futile, 
heightening mistrust.
       LFurther, the Contractor should be encouraged to participate and 
assume a supportive role at the national GEAR UP conference and 
capacity-building workshops.
    7. LWe encourage Congress to urge the Secretary to use GEAR UP 
Appropriations to open new grant competitions every year. In 
maintaining the intent of the legislative language, the Secretary is 
directed to use annual appropriations to provide broader access to GEAR 
UP programs for communities in need.
       LTherefore, as the level of GEAR UP funding increases so should 
the number of grants that are awarded. Since 2002, the Department of 
Education has chosen to ``forward fund'' existing grantees instead of 
providing opportunities for new communities to apply for GEAR UP 
grants. We believe this is contrary to the Higher Education Act's 
legislation.
    In closing, we offer the following reflection:
    GEAR UP is founded on the adage, ``Give a hungry person a fish and 
he eats for a day; teach him to fish and he can eat for a lifetime.''
    GEAR UP teaches students, parents, teachers, and schools ``how to 
fish''--how to learn, what to learn--so they can feed educate--
themselves and the generations that will follow.
    Mr. Chairman and members of the Subcommittee, my staff, the GEAR UP 
constituency and I look forward to working with you over the coming 
months to ensure that GEAR UP is neatly and efficiently reauthorized 
under the Higher Education Act of 1965.
    Thank you for the opportunity to submit this written testimony.
                                 ______
                                 

  Letter Submitted for the Record by George C. Torres, Assistant Vice 
President-Congressional/Legislative Relations, Texas Guaranteed Student 
                            Loan Corporation

July 15, 2003

The Honorable Howard ``Buck'' McKeon
Member, U.S. House of Representatives
Washington, DC 20515

Dear Mr. Chairman:

    The Texas Guaranteed Student Loan Corporation (TG) respectfully 
requests that this letter be submitted to the Subcommittee on 21st 
Century Competitiveness as a part of the record of the public hearing 
to be held on July 15, 2003. One of the individuals scheduled to 
testify is Teri Flack, Deputy Commissioner of Higher Education with the 
Texas Higher Education Coordinating Board. She will be providing the 
Subcommittee with a short overview of Texas' Closing the Gaps 
initiative established by the Texas Legislature in 1999 and 2001. TG is 
one of the partners in this effort, e.g., TG administers the toll-free 
Texas Financial Aid Information call center, as well as assists in the 
statewide planning, training, and public awareness campaigns.
    We think that these types of programs that are already in place 
have significant potential of encouraging states and institutions to 
make a greater effort to diversify their higher education enrollments 
with students from historically underrepresented populations.
    With this in mind, TG has submitted this language to Texas 
Congressional staff and House Education and Workforce Committee staff 
to begin a dialog to have this type of program made a part of the 
Higher Education Act. TG, therefore respectfully requests that this 
letter be submitted to the Subcommittee for its consideration as a 
supplement to Ms. Flack's testimony.
    Thank you for your support and continuing advocacy for access to 
higher education opportunities for all.

Sincerely,

George C. Torres
Assistant Vice President
Congressional/Legislative Relations
Texas Guaranteed Student Loan Corporation

[An attachment to Mr. Torres' letter follows:]

An amendment to the Higher Education Act of 1965 to establish a new 
        Chapter to read as follows.
                            CLOSING THE GAPS
    The Secretary is authorized under this Chapter to establish a pilot 
program in partnership with States and postsecondary institutions of 
higher education that recognizes the fact:
        1. Lthat the postsecondary education underreprepresented 
        populations (primarily Hispanic and Black) are projected to 
        increase from 24% of the country's population today to 34% in 
        2025;
        2. Lthe percentage of these populations represented in grades K 
        through 12 has increased by 55% since 1972, with Hispanic 
        enrollment alone increasing 250%;
        3. Lthe postsecondary participation rates of Hispanics and 
        Blacks are less than 15%, contrasted with 67% for Anglos;
        4. Lthe populations that will make up a significant percentage 
        (or majority) of the potential labor pool in 20 years, or 
        sooner, will be composed of young adults from those 
        populations--minority and largely low-income--who are the 
        fastest growing and most underrepresented in the nation's 
        postsecondary educational institutions; and,
        5. Lif current trends continue, a growing unskilled and under-
        educated population that cannot meet the demands of the 
        workplace, an increase in demand for spending on job training, 
        welfare, and Medicaid, lost ground in the global marketplace, 
        and a lower average family income are likely to occur.
    The program will reward those states and institutions with 
competitive matching grants and regulatory relief that develop and 
implement successful and innovative initiatives with measurable goals 
that promote access, retention, and graduation rates for 
underrepresented populations, and that have already established a 
comprehensive approach to increasing enrollment, retention, and 
graduation rates of students from postsecondary education to ``close 
the gaps'' in participation, success, and excellence by addressing 
students' academic, emotional, behavioral, and financial needs, as well 
as, cultural barriers that may affect their admission to and success in 
postsecondary education.
    Elements of the pilot program are:
Participation
    States and institutions that establish affordability policies that 
ensure academically qualified students who are able to succeed in 
postsecondary education are provided with the financial access and 
resources to enter and graduate from a college or university using a 
combination of:
        <bullet> LNeed-based grants
        <bullet> LWork-study
        <bullet> LTargeted tuition and fee exemptions and waivers
        <bullet> LAffordable tuition and fees that are set and adjusted 
        through a rational methodology
        <bullet> LInstitutional incentives that increase affordability 
        for students through administrative efficiencies in the 
        postsecondary educational system
        <bullet> LEnhanced academic preparation for admission to 
        postsecondary educational institutions by requiring the high 
        school college preparatory high school curriculum as the 
        default curriculum for all entering freshmen students
        <bullet> LPrograms that focus on recruiting, preparing and 
        retaining well-qualified K- 12 teachers
        <bullet> LStatewide comprehensive programs that promote the 
        benefits and availability of a postsecondary education and the 
        availability of financial assistance through the media and toll 
        free information centers
        <bullet> LLink tuition increases to increases in participation, 
        diversity, and graduation rates
Success
    States and institutions that establish programs and policies that 
will promote and increase the probability of success of students in 
postsecondary education through:
        <bullet> LGoals to increase postsecondary enrollment in 
        critical areas, e.g., teaching, engineering, computer science, 
        health, nursing, with targeted recruitment, retention, and 
        graduation rates
        <bullet> LPermanent partnerships among the business community, 
        postsecondary education, and low performing middle and high 
        schools to provide mentoring and tutoring services to increase 
        the postsecondary education going rates of students from 
        underrepresented populations
        <bullet> LLinking tuition increases to increases in 
        participation, diversity, and graduation rates
        <bullet> LEncouraging high school students to enroll in 
        freshman courses to strengthen the K--16 initiatives
Excellence
    Access and quality are two sides of the same coin. Emphasizing one 
at the expense of the other produces mediocrity. In the same way that 
the overall goal of the No Child left behind Act is to promote 
excellence in K--12, so should it be within K--16. In order to 
encourage states and institutions to provide support for academic 
excellence within their postsecondary educational institutional systems 
to fully achieve the goal of enrolling, retaining, and graduating more 
students who will be prepared to enter the workforce, the pilot program 
will:
        <bullet> LReward states that make efforts to establish ``high 
        quality'' academic postsecondary educational programs
        <bullet> LReward states that increase the number of nationally 
        recognized degree programs or schools
        <bullet> LOffer institutions or states the opportunity to 
        identify one or more high demand/shortage degree programs to 
        improve to a level of nationally recognized excellence and 
        provide incentives to institutions or states as the steps to 
        reach that goal are achieved
        <bullet> LFund competitive grants to match state/institutional/
        business contributions for acquiring software and maintaining 
        instructional laboratories
    In developing plans, institutions and states are encouraged to 
leverage programs already in place, including those sponsored in whole 
or in part by TRIO or GEAR UP, or other programs established and funded 
by state legislatures, and through private grants, gifts, and 
contributions.
    Plans will also include performance-based measures.
Eligibility
    The Secretary in consultation with institutions and states that 
have successfully programs in place, will develop and promulgate 
criteria and regulations to implement this Section.
    In order to be eligible to participate in this program an 
institution or state will demonstrate to the satisfaction of the 
Secretary in the plan submitted that a program will provide 
comprehensive services as described above and will have the support of 
the state legislature, institutional system, or other locally-based 
network.
                                 ______
                                 

Letter Submitted for the Record by Marcus Wilson, 2003 President, Texas 
       Association of Student Financial Aid Administrators, et al

July 18, 2003

TO:     The Honorable Howard ``Buck'' McKeon, Chair
        Subcommittee on 21st Century Competitiveness
        Member, U.S. House of Representatives
          Washington, DC 20515

FROM:  Marcus Wilson, 2003 President
        Texas Association of Student Financial Aid Administrators
        Texas Tech University Health Sciences Center
        Lubbock, Texas 79430

        Janet Barger, 2003 President
        Association of Texas Lenders for Education
        Citibank
        Grapevine, Texas 76051

        Milton G. Wright, President and CEO
        Texas Guaranteed Student Loan Corporation
        Austin, Texas 78720

Dear Mr. Chairman:
    The Texas student financial aid community wishes to submit this 
letter for inclusion in the Subcommittee on 21st Century 
Competitiveness record of the public hearing convened on July 15, 2003 
on expanding access to college for needy students.
    The suggested language included in this has already been submitted 
to the Subcommittee, and this letter should be considered an 
endorsement of the approach suggested in the proposed language.
    Specifically the Texas student financial aid community would like 
to:
        <bullet> Laddress a question that was asked during the hearing 
        concerning the state's support for the Texas Closing the Gaps 
        initiative and how the Congress might encourage states to 
        fulfill the promises made through the creation of such efforts; 
        and
        <bullet> Lsupplement the testimony provided during the hearing 
        concerning the Closing the Gaps effort.
    First, upon review of the last two appropriations bills passed by 
the 77th and 78th Texas Legislatures in 2001 and 2003, no less than 
$957 million was appropriated to support those parts of the Closing the 
Gaps initiative that have as their purpose to provide financial access 
and enroll, retain, and graduate more students primarily from 
underrepresented populations from Texas colleges and universities. Yes, 
Texas, like almost all other states and the federal government, is 
experiencing severe budget problems. There is no question that without 
these problems, more could be done in the areas of education and health 
and human services. It is also true that Texas--more than most other 
states--has the resources, capacity, and potential to do more in these 
areas.
    However, we feel it is incumbent to make clear for the record, that 
Texas' state political leadership is continuing to support the Closing 
the Gaps effort, and certainly appears to be committed to continue this 
effort, if for no other reason, because Texas' future social and 
economic well-being is inextricably linked to ensuring the success of 
these efforts. We also want to make equally clear that the associations 
representing the Texas student financial aid community have strongly 
and actively advocated, and will continue to advocate, in the state 
legislature, access for more students into Texas' colleges and 
universities and for increased funding for the Closing the Gaps effort.
    On the second point, the Texas student financial aid community 
wants the Subcommittee to understand that the Closing the Gaps effort 
concerning outreach and awareness is a statewide effort including 
professionals, student financial aid directors, college admissions 
officers, registrars, middle and high school counselors, private sector 
lenders, the state guarantor, etc. There is no single entity leading 
the charge. Associations representing these areas are active partners 
with the Texas Higher Education Coordinating Board in planning, 
developing, and carrying out the multiple strategies on the Closing the 
Gaps effort. These professionals, among many other things:
        <bullet> Lassisted in developing the plan for the GO Campaign, 
        referred to in the testimony before the Subcommittee;
        <bullet> Lassisted in the implementation of Texas Uniform 
        Recruitment and Retention Strategy Plan;
        <bullet> Ldeveloped the core content for the GO Campaign's 
        Training Tool Kit for Community-Based Organizations (CBO), 
        which, so far, has been delivered to more than 1,300 CBO 
        representatives at 26 training workshops held around the state;
        <bullet> Ltranslated the GO Campaign's Tool Kit into Spanish; 
        and,
        <bullet> Lprovides the Spanish language version of the internet 
        website.
    The state guarantor administers the Texas Financial Aid Information 
center's toll-free call center, which provides free, comprehensive 
information about all state and federal student financial aid programs 
and admission requirements for Texas colleges and universities at no 
cost to the state.
    In summary, these aspects of the Closing the Gaps campaign are 
strongly supported by the State of Texas and the higher education and 
student financial aid communities. We, the Texas student financial aid 
community, are convinced that that these types of programs that 
currently exist have significant potential for encouraging states and 
institutions in making a greater effort to diversify their higher 
education enrollments with students from historically underrepresented 
populations.
    We therefore strongly encourage the Subcommittee to consider 
similar language to that attached for inclusion into the Higher 
Education Reauthorization legislation to ``help and encourage states to 
fulfill the promises made in initiatives like'' Closing the Gaps.
    Thank you for your support and continuing advocacy for access to 
higher education opportunities for all, and, on behalf of the Texas 
student financial aid community, we invite the Subcommittee to hold a 
hearing in Texas to learn more about the Closing the Gaps effort from 
representatives of all of the partners involved in the delivery of its 
programs and services. TASFAA, ATLE, and TG would be pleased and 
honored to work with your offices to coordinate and sponsor the event.

    [``Closing the Gaps'', an attachment to this statement, was also 
submitted by Mr. Torres and can be found at the end of his letter.]

                                   - 

</pre></body></html>
